<html>
<title> - AN OVERVIEW OF U.S. COUNTERTERRORISM POLICY AND PRESIDENT CLINTON'S DECISION TO GRANT CLEMENCY TO FALN TERRORISTS</title>
<body><pre>[Senate Hearing 106-259]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 106-259


 
  AN OVERVIEW OF U.S. COUNTERTERRORISM POLICY AND PRESIDENT CLINTON'S 
             DECISION TO GRANT CLEMENCY TO FALN TERRORISTS

=======================================================================

                                HEARING

                               BEFORE THE

                  SUBCOMMITTEE ON WESTERN HEMISPHERE,
                  PEACE CORPS, NARCOTICS AND TERRORISM

                                 OF THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 14, 1999

                               __________

       Printed for the use of the Committee on Foreign Relations

                               <snowflake>

 Available via the World Wide Web: http://www.access.gpo.gov/congress/senate



                      U.S. GOVERNMENT PRINTING OFFICE
 61-361 CC                   WASHINGTON : 2000
------------------------------------------------------------------------------
                   For sale by the U.S. Government Printing Office
 Superintendent of Documents, Congressional Sales Office, Washington, DC 20402



                     COMMITTEE ON FOREIGN RELATIONS

                 JESSE HELMS, North Carolina, Chairman
RICHARD G. LUGAR, Indiana            JOSEPH R. BIDEN, Jr., Delaware
PAUL COVERDELL, Georgia              PAUL S. SARBANES, Maryland
CHUCK HAGEL, Nebraska                CHRISTOPHER J. DODD, Connecticut
GORDON H. SMITH, Oregon              JOHN F. KERRY, Massachusetts
ROD GRAMS, Minnesota                 RUSSELL D. FEINGOLD, Wisconsin
SAM BROWNBACK, Kansas                PAUL D. WELLSTONE, Minnesota
CRAIG THOMAS, Wyoming                BARBARA BOXER, California
JOHN ASHCROFT, Missouri              ROBERT G. TORRICELLI, New Jersey
BILL FRIST, Tennessee
                   Stephen E. Biegun, Staff Director
                 Edwin K. Hall, Minority Staff Director

                                 ------                                

                  SUBCOMMITTEE ON WESTERN HEMISPHERE,
                  PEACE CORPS, NARCOTICS AND TERRORISM

                   PAUL COVERDELL, Georgia, Chairman
JESSE HELMS, North Carolina          CHRISTOPHER J. DODD, Connecticut
RICHARD G. LUGAR, Indiana            BARBARA BOXER, California
JOHN ASHCROFT, Missouri              ROBERT G. TORRICELLI, New Jersey

                                  (ii)




                            C O N T E N T S

                              ----------                              
                                                                   Page

Connor, Joseph, son of Frank Connor, FALN bombing victim.........    10
    Prepared statement with attached correspondence..............    13
Coverdell, Hon. Paul D., letter from Department of Justice 
  declining an invitation to testify.............................     2
Fossella, Hon. Vito, U.S. Representative from New York...........     6
Gallegos, Gilbert G., national president of the Grand Lodge, 
  Fraternal Order of Police......................................    16
    Prepared statement with attached correspondence..............    19
Harrison, John, FALN bombing victim, prepared statement..........    35
Kyl, Hon. Jon, U.S. Senator from Arizona.........................     5
Pastorella, Rich, former detective, New York Police Department...     9
Senft, Anthony, former detective, New York Police Department.....     8

                                 (iii)

  


  AN OVERVIEW OF U.S. COUNTERTERRORISM POLICY AND PRESIDENT CLINTON'S 
             DECISION TO GRANT CLEMENCY TO FALN TERRORISTS

                              ----------                              


                      TUESDAY, SEPTEMBER 14, 1999

                           U.S. Senate,    
        Subcommittee on Western Hemisphere,
              Peace Corps, Narcotics and Terrorism,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The subcommittee met at 9:15 a.m., in room SD-419, Dirksen 
Senate Office Building, Hon. Paul Coverdell (chairman of the 
subcommittee) presiding.
    Present: Senator Coverdell.
    Also present: Senator Kyl.
    Senator Coverdell. I am going to call the hearing of the 
Western Hemisphere, Peace Corps, Narcotics and Terrorism 
Subcommittee of the Foreign Relations Committee to order.
    We are still waiting for Congressman Fossella, but I 
thought I might go ahead and proceed, deal with the opening 
statement, which is a little longer than normal.
    I want to welcome each of you: Mr. Senft, Mr. Rich 
Pastorella, Mr. Joe Connor, and Mr. Gilbert Gallegos. I 
appreciate very much your coming. You are going to have to bear 
with me for just a moment.
    First of all, I want to make it absolutely clear that the 
purpose of the hearing from the outset, going back to August 
31, was not to challenge the President's authority, which is 
clear constitutionally, but to take under advisement and try to 
understand, given the unique nature of these actions by the 
White House, what that effect would be on the perception of the 
world, our law enforcement institutions, and the people in 
general with regard to the United States policy on terrorism. 
There has been probably too much written about the politics of 
the decision. I think the more important and underlying and 
fundamental question is, does it confuse the world about what 
our policy is?
    Now, as late as 9:30 p.m. last night, the witnesses 
provided by the Federal Bureau of Investigation were preempted 
by the White House. In other words, the White House has 
instructed that there be no presentations from the Federal 
Bureau of Investigation, and we can only presume, of course, 
that that is the fundamental and underlying reason that there 
is no official here from the U.S. State Department, the Justice 
Department, the White House, and now the Federal Bureau of 
Investigation.
    I have to say to the White House that these actions, which 
have been characteristic in the past, have never worked. We are 
engaged in a public debate and dialog here, and the fact that 
they have decided to build a fortress around the decision will 
be of little value in the long run. The House has already 
expressed itself on this measure and I think importantly so. 
The Senate will do so probably within 4 hours.
    I think it would have been appropriate had the 
administration, through the State Department or the Federal 
Bureau of Investigation, come to clarify their view of how this 
relates to fundamental policy relating to terrorism, but they 
have chosen not to do so. You have to wonder in the back of 
your mind what would cause the White House to preempt and 
foreclose any representation of their administration discussing 
with the committee that has oversight the policies involved 
here. They have, in fact, by these actions in my judgment, 
raised more questions and not contributed at all to giving them 
an opportunity to explain themselves.
    [See correspondence that follows:]

                    U.S. Department of Justice,    
                         Office of Legislative Affairs,    
                  Office of the Assistant Attorney General,
                                Washington, DC, September 13, 1999.

The Honorable Paul D. Coverdell,
Chairman, Subcommittee on Western Hemisphere, Peace Corps, Narcotics 
        and Terrorism,
Committee on Foreign Relations,
U.S. Senate,
Washington, DC.

    Dear Mr. Chairman: This responds to your invitations, dated 
September 7 and September 9, 1999, to representatives of the Department 
of Justice (including the Federal Bureau of Investigation) to testify 
at your hearing on September 14, 1999, regarding anti-terrorism 
policies and the President's recent clemency decision. Although the 
Department appreciates your invitation to testify on these important 
matters, we have regretfully concluded that we are not in a position to 
provide testimony at this time.
    As your letter to Director Freeh indicates, the hearing will 
``focus on the President's [clemency] decision.'' As you know, under 
the Constitution the authority to grant clemency rests solely with the 
President. U.S. Const., Art. II, Sec.  2, cl. 1. See United States v. 
Klein, 80 U.S. (13 Wall.) 128, 147 (1871) (``To the executive alone is 
intrusted the power of pardon''); see also Public Citizen v. Department 
of Justice, 491 U.S. 440, 485 (1989) (Kennedy, J., concurring) 
(reaffirming that the pardon power is ``commit[ted] . . . to the 
exclusive control of the President''). We wish, of course, to provide 
Congress with information to satisfy its oversight needs to the fullest 
extent possible. In light of the important constitutional and 
institutional interests implicated by your invitation for testimony and 
the fact that the hearing may in significant part address the exercise 
of an exclusive presidential prerogative, we are carefully reviewing 
this matter and consulting with the White House regarding how most 
appropriately to proceed.
    Until this important issue has been resolved, we are unable to 
provide the Department (including FBI) witnesses with the guidance they 
need regarding the areas, if any, with respect to which their testimony 
would be inappropriate. Accordingly, we cannot authorize their 
appearance at tomorrow's hearing. We understand the need to resolve the 
issue promptly and we are endeavoring to do so.
    Please do not hesitate to contact me if you would like to discuss 
this matter.
            Sincerely,
                                           Jon P. Jennings,
                                 Acting Assistant Attorney General.

    Senator Coverdell. So, with that, let me then go to my 
formal statement, and then we will come to you, Congressman 
Fossella, for your introduction of these panelists that have 
given so freely of their time not only here but in other places 
as well. I apologize again. This is somewhat longer than normal 
but the uniqueness of these circumstances calls for that.
    There are few prospects more frightening and repugnant or 
more destabilizing to free societies than the use of violence 
to wreak terror among innocent civilians.
    Yet, as we approach the new millennium, the growing threat 
of terrorism is an ever-present reality. The cowardly and 
deadly bombings of the two U.S. Embassies just over 1 year ago 
were a stark reminder of the global threat of terrorism. Over 
the last decade, the U.S. Government has made significant 
strides in formulating strategies to counter the threat of 
terrorism both at home and abroad. Efforts have focused on ways 
to deter terrorist incidents from occurring and then responding 
to them, if and when they do occur. At the center of our 
strategy to deter terrorism has been a consistently tough 
message that the United States will aggressively pursue, bring 
to justice, and punish to the full extent of the law those 
responsible for perpetrating acts of terror.
    That is why President Clinton's recent decision to grant 
clemency to 16 FALN terrorists is so disturbing. It sends 
exactly the wrong message in my view. It says that the United 
States does not punish terrorists to the full extent of the 
law. It says to terrorists that they will not be subject to the 
swift and severe application of the rule of law. I have called 
the hearing today because I believe the President's decision 
represents an abrupt departure from longstanding U.S. policy on 
terrorism. There is an urgent need for the people's branch of 
Government to set the record straight and to clarify the 
administration's mixed signals about its tolerance of violence. 
There must be a voice in our Government that says to the world 
that this divergence from policy is not universally accepted.
    Current U.S. terrorism policy is crystal clear: No 
concessions to terrorists. In the State Department's annual 
publication, Patterns of Global Terrorism 1998, U.S. 
counterterrorism policy is clearly set forth: ``First, make no 
concessions to terrorists and strike no deals. Second, bring 
terrorists to justice for their crimes.''
    The policy of being tough on terrorists has been enumerated 
over and over again during the past several years by various 
administration officials and through several Presidential 
decision directives. In June 1995, for example, President 
Clinton issued Presidential Decision Directive 39, hailing it 
as the central blueprint for U.S. counterterrorism strategy. At 
the core of PDD 39 is the continuation of U.S. policy of no 
concessions to terrorists and application of the rule of law to 
terrorists as criminals. It also focuses on the need to deter 
terrorism. To quote from PDD: ``To deter terrorism, it is 
necessary to provide a clear public position that we will 
vigorously deal with terrorists. In this regard, we must make 
it clear that we will not allow terrorism to succeed and that 
the pursuit, arrest, and prosecution of terrorists is of the 
highest priority.''
    President Clinton again focused on getting tough on 
terrorists in a speech before the United Nations General 
Assembly in September of last year. He had these words to say: 
``Terrorism is a clear and present danger to tolerant and open 
societies and innocent people everywhere. The only dividing 
line is between those who practice, support, or tolerate terror 
and those who understand that it is murder, plain and simple.'' 
Those are the President's own words.
    And in several instances, this administration has moved 
beyond rhetoric and taken action to punish terrorism. After 
pledging to use all means at our disposal to track down and 
punish those responsible for the embassy bombings, the 
President ordered missile strikes against Osama bin Laden's 
training bases in Afghanistan.
    At the core of these policies is the concept that swift and 
tough action against terrorists will help deter future 
occurrences. Indeed, I believe the credible threat of reprisal 
and full punishment under the law remains the best deterrent.
    Yet, these policies and our efforts against terrorism were 
severely undermined on August 11 when President Clinton decided 
to let convicted agents of terror go free. He made his decision 
despite longstanding policies of applying the full scope of law 
and making no concessions to terrorists. With the stroke of a 
pen, our fight against global terrorism suffered an 
unmistakable setback.
    According to President Clinton, the most compelling 
argument for clemency is that ``even though they belonged to an 
organization which had espoused violent means, none of them had 
done any bodily harm to anyone.'' If we use the President's 
logic, do we free Terry Nichols who was far away from the 
bombing in Oklahoma City or the blind cleric who plotted the 
World Trade Center bombing? Do we stop pursuing Osama bin Laden 
since he ordered but did not set off the bombs that claimed 
innocent American lives at our embassies? Or in other words, do 
we have two classes of terrorists from this point forward: 
those engaged in the direct destruction and those who plotted 
and planned it? You are somehow lesser if you were not actually 
involved with the occurrence.
    By using this logic that the 16 individuals are worthy of 
clemency because they did not actually kill anyone, is the 
administration setting a new standard that only successful 
terrorists should be punished?
    The bottom line is that 16 individuals were intimately 
involved in anti-American terrorist activities targeting our 
Government and innocent American citizens. They were active 
supporters of terrorism, convicted of crimes that directly 
supported the bombers and killers. They were an integral part 
of a conspiracy responsible for 130 bombings, 6 deaths, and 
dozens of injuries.
    Official records from the U.S. Attorney's office in Chicago 
set forth the FALN history of terror: the actual and planned 
bombings, the safe houses where bomb-building techniques were 
practiced, the stashes of ammunition and explosives, the actual 
conversations between FALN members conspiring to bomb, rob, and 
break their comrades out of jail. The records demonstrate no 
sign of repentance--and I have to say I still have seen none--
or remorse. Rather, the violent tendencies are confirmed. 
During court proceedings in Chicago in 1981, for example, one 
of the terrorists shouted at the judge: ``You are lucky we 
cannot take you right now. Our people will continue to use 
righteous violence. Revolutionary justice can be fierce, mark 
my words.'' Another warned the judge to ``watch his back.''
    One of my questions to the White House, which we will have 
to now form in writing, are any of these individuals involved 
with the apprehension or adjudication of these individuals in 
any danger today? And if so, what steps is the United States 
taking to protect them?
    In the words of a U.S. attorney prosecuting the FALN 
terrorists, ``the FALN has assaulted the American public 
through bombs and bloodshed. That is what this case is about, 
pure, unadulterated terror.'' In fact, during the sentencing, a 
Federal judge told one of the defendants: ``I am convinced you 
are going to continue as long as you can.'' That is terrorist 
activity. ``If there was a death penalty, I'd impose the death 
penalty on you without any hesitation.''
    It is no surprise then that the FBI, the Bureau of Prisons, 
the U.S. Attorney's office who prosecuted the terrorists, and 
numerous law enforcement organizations have all reportedly 
opposed the President's decision. The President should know 
that this Senator, many of my colleagues in Congress and, I 
dare say, an overwhelming majority of law-abiding American 
citizens also oppose the President's decision.
    To conclude, it is sadly ironic that just days before he 
offered clemency to FALN terrorists, President Clinton issued a 
statement commemorating the 1-year anniversary of U.S. Embassy 
bombings and the loss of life in those acts of violence and, I 
might say, two of my fellow citizens from Georgia. In his 
message he said the following: ``Terrorists murdered these men 
and women and tore the hearts of those who loved them. We have 
intensified the struggle against terrorist violence and 
strengthened security to protect our people. We will not rest 
until justice is done.''
    In light of his most recent action, the President's words 
ring hollow. What are we to say today to the victims of the 
vicious and cowardly FALN crimes and the victim's loved ones?
    The President may have the power to commute the sentences 
of the terrorists, but that will not restore sight to Mr. 
Pastorella, restore full health to Mr. Senft, or return the 
father Joe and Tom Connor missed growing up. Mr. President, 
terrorism has a human face we cannot ignore.
    I also want to recognize, before we go to you, Congressman 
Fossella, Senator Jon Kyl, who is chairman of the subcommittee 
on the Intelligence Committee on terrorism and ask if you would 
have a statement to make at this time.

      STATEMENT OF HON. JON KYL, U.S. SENATOR FROM ARIZONA

    Senator Kyl. Thank you, Mr. Chairman. A very brief 
statement, and I thank you for the opportunity to sit on this 
important subcommittee, even though I am not a member, because 
of my interest in the terrorism issue.
    The question before this committee is the effect on U.S. 
foreign policy generally and terrorism specifically, of course. 
The FBI and others have always said that the best antidote to 
terrorism is clear, consistent, and firm policy against it, 
with emphasis on always tracking down and prosecuting and 
incarcerating terrorists. In fact, before the Judiciary 
Committee, we have frequently heard testimony from the FBI that 
one of the key factors for there not being more terrorism in 
the United States, as compared with other places in the world, 
is that all terrorists know that any conduct in the United 
States will be prosecuted and the people will be held 
accountable for it. They put it this way: We will track you 
down and we will ensure that you pay the penalty. And because 
that happens most of the time, there is less terrorism in the 
United States.
    The question with the President's action here is exactly 
what Chairman Coverdell stated: Does it confuse our policy, 
creating ambiguity about our commitment to effectively deal 
with terrorists?
    I have talked with at least one prominent Puerto Rican, Dr. 
Mary Ramirez, who is in the audience here, who has said that 
the release of these terrorists has created a very tense 
atmosphere in Puerto Rico. People feel threatened. The FALN 
supporters have treated the returning terrorists as conquering 
heroes. Opponents feel personally threatened by their 
aggressive actions. This is the unfortunate consequence of the 
President's actions, not the closing of a chapter, but the 
opening of a new chapter, perhaps even a new offensive.
    The President, of course, has the legal authority to do 
what he did, but your committee, Mr. Chairman, has the 
authority to set policy, including anti-terrorist policy. And 
these hearings are an important step in understanding the 
consequences of easing up on terrorists as a prelude to doing 
everything else we can do to fight terrorism with the only 
effective policy, firmness and resolution.
    So, I commend you for holding this hearing and again 
express to you personally appreciation for being able to sit on 
the dias, at least until 10 o'clock, when I will have to leave. 
Thank you, Mr. Chairman.
    Senator Coverdell. I appreciate very much the Senator being 
here and his work in this area which has been so important for 
an extended period of time. You are very kind to be present.
    Now I am going to turn to you, Congressman Fossella. I 
appreciate the work you have been doing on this issue on your 
side of the Capitol. We have not really had a chance to know 
each other, and I have watched your work with great interest. I 
appreciate your coming to introduce these very distinguished 
American citizens that are here today.

 STATEMENT OF HON. VITO FOSSELLA, U.S. REPRESENTATIVE FROM NEW 
                              YORK

    Mr. Fossella. Well, thank you, Mr. Chairman. I thank you 
for your leadership in the Senate. I know you have been working 
on this issue since the President offered clemency, and I 
really commend you for your leadership in the Senate.
    And, Senator Kyl, I know your schedule is very busy and for 
you to take time out is greatly appreciated as well.
    Now, Mr. Chairman, I thank you for extending to me an 
invitation to speak briefly before your subcommittee and 
introduce several witnesses. I appreciate the opportunity to 
introduce to you and other distinguished members the human 
faces, the lives that have forever been changed, who have 
suffered at the hands of terrorists.
    I would also like to commend your swift and forceful action 
on this issue in the Senate.
    I believe the clemency offer by the President is a travesty 
of justice. Anthony Senft and Richard Pastorella, former New 
York City Police Department detectives, were permanently 
wounded by FALN terrorists. They can tell you much better than 
I what these terrorists have done to their lives. They were 
innocent targets of an unrepentant military organization that 
promoted the use of violence to win independence for Puerto 
Rico. Joseph Connor, who is with us today, can tell you how the 
FALN terrorists changed his life for the worse. This young man 
was left fatherless when his father, Frank Connor, just 
happened to be having lunch in Fraunces Tavern in New York City 
when an FALN bomb shook the restaurant, killing his father and 
others. It was 1975. He was celebrating his ninth birthday.
    Mr. Chairman, these are the faces, the real faces, behind 
the FALN tragedies. It is no coincidence, I believe, that there 
have been no bombings since these 16 FALN terrorists were 
sentenced to prison. It terrifies me that someone else's father 
or another police officer could be put in harm's way now that 
these terrorists are free.
    Last week Congress in a loud voice denounced the 
President's offer of clemency and made it clear that his 
decision violates longstanding U.S. counterterrorism policy. We 
also offered the victims a voice in this process, a voice that 
they never had the opportunity to use until right now.
    Releasing the FALN terrorists back on our streets as free 
men is a complete betrayal of these brave men who are here 
today and the rest of the victims who they represent.
    I trust you agree that this clemency sends a terrible 
message to the world that the U.S. is soft on terrorism and 
that FALN terrorists deserve to stay behind bars. It terrifies 
me that the possibility even exists that we could see FALN 
victims again. I pray that never comes. According to the 
promise, we can rest on that promise of convicted terrorists.
    Mr. Chairman, in closing I hope history records this act 
for what it was. We were coddling with terrorists and we set 
them free; that is, this White House did.
    There are others in this town who prefer to talk and toe 
the line for terrorists. Others like you, Mr. Chairman, Senator 
Kyl, prefer to be a voice for the victims. History will record 
that as well.
    Senator Kyl, you suggested that there are people who are 
celebrating the conquering heroes, the release of these 
terrorists. I think the vast majority of the American people 
define hero differently. These men are our heroes and I think 
the American people are disgusted with what the President did 
by offering clemency, and I hope and pray that their memory is 
not in any way compromised by the fact that right now 
terrorists are meeting once again. And I pray and I hope that 
they never get the opportunity to kill another innocent human 
being ever again.
    That is my statement, Mr. Chairman. Now it is my pleasure 
to introduce Detective Anthony Senft.
    Senator Coverdell. Detective, thank you for being here and 
for your service to the people of the United States.

 STATEMENT OF ANTHONY SENFT, FORMER DETECTIVE, NEW YORK POLICE 
                           DEPARTMENT

    Mr. Senft. Thank you, Senator. Mr. Chairman, Members of the 
Senate, good morning. My name is Detective Anthony Senft, and I 
thank you for inviting me to address the committee.
    I stand before you today not only as an American citizen 
but also as a victim of terrorism on American soil, a victim of 
terrorism at the hands of the FALN. On December 31, 1982, while 
working for the New York City Police Department as a detective 
in the bomb squad, I was severely injured by one of five bombs 
placed by the FALN while my partner and I attempted to render 
it safe.
    On that day, I received a lifelong sentence without the 
opportunity for parole, time off for good behavior, and no 
chance of clemency. My sentence included five reconstructive 
operations on my face, the loss of all my sight in one eye, 60 
percent hearing loss in both ears, a fractured hip, severe 
vertigo, and the hell of post traumatic stress disorder. Since 
then I received a blood clot in my lung that has been sitting 
in my hip and almost lost my life 2 years ago.
    My only solace was the fact that the 16 members of the FALN 
were serving prison sentences for crimes committed against 
American citizens. Now, 16 years later, American citizens and I 
are victims once again as a result of terrorist acts by the 
FALN and the pandering of our President.
    President Clinton, by this clemency decision, makes a 
mockery of our Nation's policy for zero tolerance. He speaks 
out of both sides of his mouth as he denounces terrorist 
McVeigh for terrorist acts in Oklahoma and says publicly, 
immediately following the horrible acts against the children in 
that Jewish community center in Los Angeles, that Americans 
will not accept terrorism. Yet, he releases 16 terrorists on 
that same day.
    Was it because of political pressure from special interest 
groups? We do not know that.
    Clinton's actions tell would-be terrorists around the world 
that terrorism against the United States and its people is an 
acceptable form of demonstrating their political ideology and 
terrorists need not fear the wrath of the American justice 
system any longer, for all they need to do, after destroying 
American property and lives, is to give a half-hearted, almost 
forced apology, and we will all be forgiving them.
    Senators, all is not forgiven. Terrorism against the United 
States can never be an accepted form of political protest. 
President Clinton, by his clemency offer, is releasing 16 
terrorists back onto the streets of America to commit more acts 
of terrorism against our families, your children, my children, 
our grandchildren.
    Some of the released convicted terrorists are the same 
people who, while doctors were working feverishly to save my 
life and while my family members rushed to my bedside, called 
New York radio stations to take responsibility for placing all 
five bombs. This same terrorist group has proudly taken 
responsibility for placing over 130 bombs in the United States 
that have killed 6 innocent people and maimed over 100 innocent 
victims, and now again they have put fear into Americans across 
our land.
    If this band of violent terrorists was so remorseful for 
their horrific acts, then why did it take over 3\1/2\ weeks for 
them to come forward and denounce their terrorism on our soil? 
And now do we trust these terrorists?
    This committee must ask itself why the President would 
grant this clemency against the advice of law enforcement 
organizations whose job it is to review and give 
recommendations on the appropriateness of clemency. Was it to 
gain favor for the Puerto Rican vote in New York City for 
Hillary Clinton's senatorial bid? Or was it simply an example 
of our President's lack of moral character?
    William Morales, the FALN self-professed leader and 
convicted terrorist, seeks amnesty from our President. We must 
take a strong affirmative stand against any amnesty for William 
Morales. Our duty as police officers and elected officials is 
to protect our fellow citizens against terrorists like Morales 
and the 16 terrorists granted clemency.
    I have done my best to protect the lives of fellow New 
Yorkers and I have paid the price for that, with absolutely no 
regrets. Now I ask this committee and our Senators to take a 
stand and enforce our Nation's policy of zero tolerance for 
terrorists. Our President has chosen to ignore policies and the 
recommendations of the bureaus that oversee clemency requests. 
It is time for our Senate and our country to protect American 
citizens against terrorists and to punish those convicted of 
terrorizing our families and our Nation.
    Senators, I thank you for your time and I want to say God 
bless America.
    Senator Coverdell. Thank you very much, Mr. Senft. Despite 
maladies you still suffer, we are very pleased to see you 
looking so well and with us here today.
    Now I will ask Mr. Rich Pastorella, former detective of the 
New York Police Department, if we might hear from you.

STATEMENT OF RICH PASTORELLA, FORMER DETECTIVE, NEW YORK POLICE 
                           DEPARTMENT

    Mr. Pastorella. Thank you, Senator Coverdell, for the honor 
and privilege of speaking before your subcommittee this 
morning.
    Unfortunately, I do not have a prepared speech. My speech 
comes from my heart as an American citizen who has been 
betrayed by his President.
    I too, on the day of New Year's Eve 1982, was very 
seriously injured in a bombing by the FALN. My partner, Tony 
Senft, and I will have to endure the pain and suffering from 
that tragic moment for the rest of our lives. On that 
particular day, I lost all of the fingers of my right hand. I 
lost the sight of both eyes. I lost 70 percent of my hearing. I 
had to endure 13 major operations of reconstructive surgery on 
my face and my hand. My face was shattered in that blast. I 
have 22 titanium screws holding my face together. I have 
shrapnel from that device embedded in my stomach, my shoulders, 
and my head.
    I do feel betrayed this day by the actions of a President 
who has forgotten his oath to protect and to serve the 
citizenry of America. His release of these 16 terrorists is 
subjecting every American citizen, every law-abiding American 
citizen, to the same tragic ends that Tony Senft and I have 
suffered.
    It is incumbent upon you, Senator Coverdell, and your 
subcommittee this day to look into this to see that it never 
happens again.
    Our President, William Jefferson Clinton, has seen fit to 
send out throughout the world a terrible message: first, that 
the law enforcement community is expendable, and second, that 
terrorists throughout this world will not be pursued, as he has 
claimed, to the ends of this Earth.
    When our embassies were bombed in Africa and we lost 
American and African nationals, our Secretary of State, 
Madeleine Albright, said that we would never negotiate with 
terrorists. We would pursue them to the ends of the Earth. What 
hypocrisy. What hypocrisy.
    We is the true face of what terrorism is, the damage it can 
do.
    Shortly, you will hear from a friend of ours, Joe Connor, 
whose father died in a bombing at Fraunces Tavern in 1975.
    The FALN has, as part of its true manifesto, the violent--
and I underscore the violent--overthrow of the American 
Government. How dare our President, knowing this, release them 
back into the streets of America once again. I hope and I pray 
that this organization never raises its ugly head again.
    As I said at the outset, I am privileged as an American to 
speak here before this body. I hope and I pray also that the 
souls who have lost their lives at the Alfred P. Murrow 
building in Oklahoma City, and those at the World Trade Center 
in New York City, and those at our embassies around the world 
are not forgotten. There is no commutation from this. We will 
never be free. Never.
    I thank you again for allowing me this privilege, and I 
hope that a true, strong message is sent to our President on 
what the real face of terrorism is. I thank you.
    Senator Coverdell. I thank you, Mr. Pastorella, for your 
willingness to be here, to speak out, for the statement you 
have just given, along with Mr. Senft and of course, we do not 
want to forget, for your extended service protecting the 
citizens of New York and the United States when you were on 
active duty. We appreciate very much the work of all law 
enforcement officials and particularly yours and those that 
have confronted personal setbacks and injury as a result, as 
you have. Thank you very much for being here.
    Mr. Connor, we are going to turn to you now, if we might.

 STATEMENT OF JOSEPH CONNOR, SON OF FRANK CONNOR, FALN BOMBING 
                             VICTIM

    Mr. Connor. I want to thank you all for inviting me here, 
Mr. Chairman and Congressman, and particularly Tony and Richie 
who are true heroes who have made the United States a safer 
place to live and I thank them from the bottom of my heart.
    I am here on behalf of my family and those families who 
were affected by the murderous spree of the FALN, and I am here 
on behalf of my dad because I feel that we are doing the right 
thing in making sure that this does not happen to any other 
family.
    I am going to ask up front some questions I want the 
committee to investigate and I will explain them as I go along. 
But my issues really are why the President disregarded the 
recommendation of the FBI, Justice Department, and the Bureau 
of Prisons and released the terrorists.
    Why the victims and their families were neither given 
proper notification of the clemency nor were given a meeting 
with Janet Reno, as the pro-clemency advocates had received.
    What the impact of granting clemency to these terrorists 
is, and in particular, how it will relate to William Morales, 
who Richie touched upon before, who is also seeking clemency.
    Why the President initiated the clemency process without a 
formal request from those terrorists.
    And whether Hillary Clinton's bid for the Senate seat has 
made an impact in his decision.
    Contrary to the claims of those who have supported the 
clemency, there is nothing nonviolent about these 16 FALN 
members. I point to two specific issues on that.
    One is four of them were caught while building bombs when 
they were arrested. The fact that they were not able to 
detonate them does not make them less violent than if they had. 
Is an unsuccessful terrorist less of a threat than a successful 
terrorist?
    And second, just this past weekend on one of the news shows 
on Sunday, one of the terrorists was given the chance to 
apologize for what he had done and show remorse. He failed to 
do so. As a matter of fact, he claimed that people were killed 
as a result of not being prepared or taking the necessary 
precautions. My father was at a restaurant eating lunch. Is 
that to imply that the terrorists believe we need bomb-sniffing 
dogs now when we go to restaurants and it was my dad's fault 
that he was murdered?
    These are the kind of people that the President has 
released on the American public, and it is an outrage.
    Further evidence is the bombing stopped after these 16 were 
put away.
    The FALN killed real people, innocent people, and ruined 
the lives of many others.
    Friday, January 24, 1975 was a beautiful winter's day. I 
will never forget it. I had just turned 9 and my brother had 
just turned 11, and it was time for us to celebrate. It was a 
Friday night. We had gotten home from school. My mom had heard 
on the radio that there had been an explosion downtown where my 
dad worked. She knew right away when she called that he had 
been there. She just had a feeling. As 9- and 11-year-olds, we 
were called in from playing that day, and told that my dad had 
been at the bombing. We prayed for hours and hoped and imagined 
that we would see him again. Within 5 hours or so, we were told 
that he had been killed.
    It is impossible to describe how that affects a 9-year-old. 
It is devastating.
    He was only 33 years old at the time. He was full of life. 
I have a picture right here of a happier time.
    But this is what happened. These were indiscriminate acts 
of violence and murder. As a matter of fact, I have recently 
spoken to people who were there that day and they described 
seeing someone walk in, plant the bomb behind the table, and 
walk out. These people saw that they were going to kill. They 
knew that they were going to kill. And my fear is that next 
time, when either they or someone strikes, feeling they will 
not be prosecuted to the fullest extent, it will not be 4 
people, it will be 400 people, or it will be chemicals or a 
biological, and it will be 4,000 people. It is a disgrace.
    These people took away my father's life. They never allowed 
him to see my brother and me play sports in high school or 
allowed him to take the pride in seeing us graduate from 
college or get married. They took from him the joy of being a 
grandfather. They took from my mom the promise of growing old 
with him, her first love.
    His grandchildren will never know their grandfather. They 
look at pictures, even now, and ask who he was. My wife and I 
tell them he is in heaven looking down on us. But when they ask 
why he was killed, what answer can we give? His life has been 
valued lower than some political agenda of the President of the 
United States.
    My father loved his country deeply and he believed in its 
greatness. And this is what he gets in return for that.
    Not only was this clemency grant immoral, but it also 
violated some legal conventions, such as the Victims Rights and 
Restitution Act, where victims are supposed to receive word of 
any clemency by a responsible official. We never received any 
word of the clemency. As a matter of fact, we read it in the 
paper the day after it happened, and if the terrorists in their 
arrogance had accepted it right away, we probably would not 
have found out about the clemency act until they were out of 
jail. And that is outrageous.
    The process was also improper. The President was petitioned 
on behalf of these terrorists, not by the terrorists 
themselves. And he had the petition for 6 years until he 
decided to act upon it, basically thrusting the clemency at 
them, rather than the other way around. You would hate to think 
that this was connected to Hillary's run at the Senate, but I 
do not see any other answer to it.
    There has also been a disinformation campaign, and it talks 
about the likes of Cardinal O'Connor and Jimmy Carter and 
Desmond Tutu acting on behalf of the pro-clemency side. First 
of all, to set the record straight, I have communicated with 
Cardinal O'Connor's office, and he never asked for clemency on 
behalf of these people. He asked for the Attorney General to 
review their cases. Stop. It is a big difference.
    Also, Desmond Tutu and Jimmy Carter--I have tried to 
contact Carter to no avail, but I have never seen anything that 
he has written or said about it, nor have I heard anything what 
Desmond Tutu has said. And quite frankly, I do not know what 
relevance their opinions have on this issue anyway.
    But these are the disinformation that has been put forth by 
the pro-clemency side and has really been taken up by the White 
House. It appears as though, when you deal with the White 
House, if you say it enough times, it becomes the truth. 
Certainly that is the way they act.
    The Department of Prisons, the FBI, and the Justice 
Department have all recommended against the clemency. The 
Department of Prisons believes that there is a very good chance 
that the FALN would take up their criminal behavior again upon 
release.
    And I have heard--and it is unconfirmed--that the Parole 
Board is giving them the opportunity to still meet face to face 
on political issues in Puerto Rico, which is astounding and 
disgraceful, and I hope it is not true.
    I have a copy of a Justice Department letter, which is part 
of the handout, which I received last year. In the letter, it 
described these 16 as terrorists. The Justice Department's own 
letter describes them as terrorists. I suggest the President 
read this letter and understand that they have been classified 
terrorists from his own people.
    Terrorism is one of the major problems that we are going to 
face in the next century. We thought that we had eradicated the 
threat from the FALN almost 20 years ago. It is sad when we 
have made this a real problem or a potential problem again. We 
have enough problems that we need to deal with. This was over 
and now it is back, and I am sad to say that the world is a 
less safe place as a result.
    Thank you.
    [The prepared statement of Mr. Connor follows:]

                  Prepared Statement of Joseph Connor

    My name is Joseph Connor and I appear before the Committee as a 
person forever affected by an FALN terrorist act that killed my father, 
Frank Connor, at Fraunces Tavern 24 years ago and by the recent 
unconscionable and immoral decision by the President to grant clemency 
to 16 FALN terrorists.
    For the reasons I will explain, I request that the Committee 
formally investigate the following aspects of President Clinton's 
clemency grant to the FALN terrorists:

  <bullet> Why the President disregarded the recommendations by the 
        FBI, Justice Department and Bureau of Prisons that the 
        terrorists not be released?
  <bullet> Why the victims and their families were neither given proper 
        notification of the clemency nor a meeting with Janet Reno, as 
        pro clemency supporters were granted?
  <bullet> The impact of granting of clemency to the FALN terrorists 
        will have on future terrorist acts and whether the possible 
        clemency request by William Morales should be granted?
  <bullet> Why the President initiated the clemency process without a 
        formal request from the terrorists themselves?
  <bullet> Whether Hillary Rodham Clinton's political aspirations in 
        New York State played a role in the clemency grant?

    Contrary to the disingenuous claims of those who sought the 
terrorists' release, there is nothing nonviolent about these FALN 
members and there has been no remorse. Four of them were videotaped 
making bombs just prior to their arrests. Just this past weekend, one 
of the now released terrorists explained there is no need for him to 
feel guilt for the Fraunces bombing. Incredibly and shamelessly, he 
argued that the establishment where people were killed did not take 
proper precautions to guard against such an attack. My father was 
killed while eating lunch in a restaurant! These are the people our 
President has released on society.
    The bombings only stopped when these terrorists were put in jail!
    The FALN killed real people and devastated the lives of many 
others. Our family has had to live with the aftermath of their ``non-
violence'' for almost 25 years. It was a beautiful winter's day, 
Friday, January 24, 1975, when my family was shattered by the bombing 
of Fraunces Tavern in New York City. My father, Frank Connor, was 
brutally murdered in the attack; an attack for which the FALN proudly 
claimed responsibility. Our mother, Mary, had spent much of the day 
preparing a special meal which we planned to have that night to 
celebrate my brother's and my recent 11th and 9th birthdays, 
respectively. (Mourners ate that meal after my dad's funeral.) Shortly 
after coming home from school that day, we learned that our father had 
been with clients at Fraunces for lunch. After an agonizing vigil, his 
colleagues at Morgan Guaranty Bank delivered the final, devastating 
news to my mother, brother, grandmother and me.
    My father was only 33 years old when he was killed. The only child 
of an elevator operator and a cleaning lady, he was born and raised in 
Washington Heights, a working-class section of Manhattan, attended City 
College (where, ironically several of the FALN terrorists also 
``studied''), graduated from Farleigh Dickinson University, and worked 
his way from the ground floor up to a successful career at Morgan. Now 
at 95 years of age, my grandmother, like the rest of my family, has 
never recovered from his death. Although my mother has remarried and my 
brother Tom and I now have families of our own, not a day passes 
without feeling the void left in our lives. We miss him deeply. My 
father's death has become a part of me; an indescribable, intangible 
wound that has been opened and aggravated by this preposterous and 
disrespectful clemency grant.
    These terrorists took away my father's life; never allowing him to 
see his sons play sports in high school, never allowing him the pride 
in seeing his boys graduate college, and get married. They took from 
him the joy of being a grandfather. They took from my mother the 
promise of growing old with her first love.
    His grandchildren will never know their grandfather. They look at 
pictures and ask who he is. My wife and I tell them he is in Heaven 
watching over us. But, when they ask why he was killed, what answer can 
we give? His life been valued lower than the political agenda of the 
President of the United States. My father loved his country and in 
whose greatness he believed. Is this what he gets in return?
    Not only was this grant of clemency immoral, but it violated 
several legal conventions. Under the Victim's Rights and Restitution 
Act of 1990, a ``responsible official'' was to provide victims with the 
earliest possible notice of the release from custody of the offender. 
The law reads at 42 U.S.C. Section 10607(c)(5): ``After trial a 
responsible official shall provide a victim the earliest possible 
notice of . . . release from custody of the offender.'' My family read 
about the grant in the newspaper! We have never been contacted by Janet 
Reno or anyone at the Justice Department or the White House regarding 
our views on the clemency. Had we been properly notified, we would have 
requested the delivery of our opinion on the issue through a personal 
meeting with Janet Reno, as the pro clemency supporters were granted. 
God willing, if Ms. Reno had been fully informed, there is a chance, 
however small, given her own political nature, that she would have 
vehemently objected to the clemency offer from ever having being made 
by the President. Because no notice had been provided by the Clinton 
Administration, had the terrorists renounced violence and accepted 
clemency right away, they may actually have been out ofjail before we 
ever learned of the offer.
    The process through which this clemency was offered was improper. 
Typically, those incarcerated express remorse and request clemency from 
the President through a standard process. He then reviews the claims. 
In 3,039 out of 3,042 prior cases, clemency was denied by the Clinton 
Administration. In this case, the terrorists did not express remorse or 
actually request clemency. It was petitioned on their behalf in 1993, 
and the request sat on the President's desk for 6 years. Was it a 
coincidence that when Mrs. Hillary Rodham Clinton decided to run for 
the Senate in New York State, the President suddenly, and without 
notice, took an interest in the clemency request and then granted it? 
Perhaps most telling, the clemency request was granted before the FALN 
terrorists themselves ever made their own request.
    Much has been written about the support given to the clemency 
request by luminaries such as Cardinal O'Connor, Desmond Tutu and Jimmy 
Carter. This is clearly part of a disinformation campaign. Cardinal 
O'Connor never supported clemency, but merely asked the Attorney 
General to review the case--a large difference. (I am attaching a 
letter from Cardinal O'Connor to me explaining this.) These lies have 
been proliferated by White House spokesmen since clemency was offered.
    Has anyone heard or read the opinions of Desmond Tutu or Jimmy 
Carter? Even if they had supported clemency, on what factual and legal 
basis did they do so? And, what is the value of their supposed opinions 
on this matter in any event, given that clemency was opposed by the 
FBI, the Bureau of Prisons, and the U.S. Attorney's Office. History 
teaches us from the Iran hostage crisis that Jimmy Carter, whatever his 
virtues, is hardly an expert on how to deal with terrorists. In fact, 
Bureau of Prisons officials concluded that, if released, these 
terrorists might resume their criminal behavior.
    As recently as last year, the Criminal Division of the Department 
of Justice wrote to our family, describing the arrests and convictions 
of these people, referring to them in the Government's own reports as 
``terrorists.'' Perhaps the President should read this letter, which I 
am also attaching to this written hearing statement.
    Terrorism is one of the major problems facing the world as we enter 
the new century. While terrorism continues on from many foreign and 
domestic sources, the nation thought that the threat from FALN 
terrorists had been at least eradicated almost 20 years ago. Thanks to 
the President's callous disregard, the threat is now back and the world 
is a less safe place as a result. I keep hearing the President 
repeating that we have to protect our children. Is unleashing 
unrepenting, hardened killers on society the way to do so? It shouldn't 
``Take A Village'' to see that trampling on the rights of victims, and 
ignoring proven prevention techniques in our criminal justice system 
for considering and denying clemency applications, is not the way to 
fight terrorism.

    [Attachments]

                            Office of the Cardinal,
                                         1011 First Auenue,
                                      New York, NY, April 13, 1999.

    Dear Joseph: I received your letter concerning my support for a 
review of the cases of 15 Puerto Rican federal prisoners. I understand 
your opposition given the terrible tragedy that your family experienced 
in the loss of your father. I believe that this kind of terrorist 
action must be condemned, I am sorry for what you have suffered.
    My request to Attorney General, Janet Reno was for a review of 
these cases. I believe that there are many factors which must be 
considered, including the renunciation of violence as a means of 
achieving political ends, as I stated in my letter. I also believe, 
with you, that an expression of remorse for these crimes, should also 
be considered in determining humanitarian release.
    I appreciate your sharing your views with me.
            Faithfully in Christ,
                                    John Cardinal O'Connor,
                                            Archbishop of New York.

                                 ______
                                 

                        U.S. Department of Justice,
                                         Criminal Division,
                                   Washington, DC, January 6, 1998.
Mr. Joseph F. Connor

    Dear Mr. Connor: Your letter to Attorney General Janet Reno, in 
which you request a greater recognition on the part of the U.S. 
Government of the terrorist crimes perpetrated by the FALN in the 
1970's, has been forwarded to the Criminal Division for response. We 
apologize for our delay in responding.
    In your letter, you express your desire that the crimes committed 
by William Morales, the alleged leader of the FALN presently residing 
in Cuba, and by other members of the FALN be publicly condemned by the 
U.S. Government as crimes of terrorism. William Morales was sentenced 
in New York to a 29- to 89-year prison term on state charges and up to 
10 years in prison on federal charges. However, after escaping from a 
New York hospital in 1979, he made his way to Mexico. In 1983, he was 
convicted in Mexico for the killing of a police officer and sentenced 
to eight years in prison. Mexican authorities released Morales from 
prison after he had served five years, rejecting a long-pending U.S. 
extradition request on grounds that Morales was a ``political fighter 
for the independence of Puerto Rico.'' The United States expressed its 
disagreement with this decision, stating that the U.S. Government was 
``deeply disturbed that an individual with Morales' record of criminal 
behavior . . . [w]ould even be considered for possible political 
refugee status.'' Since 1988, the Government of Cuba has apparently 
provided safe harbor for Morales.
    In addition, numerous members of the FALN were arrested in 1980 for 
their involvement in 28 bombings aimed at gaining independence for 
Puerto Rico. They were convicted in 1981 on thirteen counts that 
included seditious conspiracy, auto theft, illegal use of weapons, and 
plotting to kidnap. Three other FALN terrorists were arrested in 1983 
for attempting to bomb U.S. military installations, for auto theft, and 
for attempted armed robbery. An additional two terrorists were arrested 
in 1986 on charges of robbery. Thus, in the case of the crimes 
perpetrated by the FALN, including the 1975 Fraunces Tavern bombing, 
the United States has pursued its policy of vigorously investigating 
and prosecuting those acts of terrorism which significantly impact on 
U.S. interests. In accord with this policy, the Federal Bureau of 
Investigation remains committed in its investigative efforts to 
apprehend William Morales. It is our hope that by aggressively pursuing 
and prosecuting terrorists, we will, deter others who might contemplate 
committing such crimes.
    We extend to you and your family our condolences on the loss of 
your father, Frank T. Connor, in 1975. We thank you for sharing your 
concerns with us and hope that this matter may one day be resolved.
            Sincerely,
                                         Ronnie L. Edelman,
                                            Principal Deputy Chief,
                               Terrorism and Violent Crime Section.

    Senator Coverdell. Thank you, Mr. Connor. We appreciate 
very much your being here, and I hope you will take some 
comfort from the fact that there are many who feel deeply about 
the loss of your father or any other citizen. I think you will 
see expressions responding to that in the people's branch of 
Government, and I hope that will be of some comfort to you and 
your family.
    Mr. Connor. Thank you.
    Senator Coverdell. The questions that you posed we would 
like to receive a copy of. There will be other committees of 
jurisdiction dealing with the subject. Some of the questions 
you raise deal with the judiciary. So, if we can receive the 
questions that you pose, we will endeavor to respond to them 
and also pass those questions on to the Judiciary Committee. 
Most of them have application there; i.e., proper notification 
of victims and/or other officials, which I raised in my opening 
statement as to whether or not somebody is at risk here and 
were they appropriately notified.
    Mr. Connor. I have a written statement I can provide to you 
and your staff.
    Senator Coverdell. OK, very good. We appreciate that very 
much.
    Mr. Gallegos, we will now turn to you for your testimony.

  STATEMENT OF GILBERT G. GALLEGOS, NATIONAL PRESIDENT OF THE 
             GRAND LODGE, FRATERNAL ORDER OF POLICE

    Mr. Gallegos. Thank you, Mr. Chairman. My name is Gilbert 
Gallegos. I am the national president of the Fraternal Order of 
Police, which is the largest law enforcement organization in 
the country, 283,000 members.
    I had hoped to appear before you today to urge the 
President, along with you, to withdraw his offer of clemency 
for these 16 convicted terrorists, who are members of the Armed 
Forces of National Liberation. When we talk about liberation, 
we talk about liberty, and I challenge them and the President 
to really outline how you can use violence for liberation. It 
is ironic that these terrorists, or as I really view as simply 
criminals, are given the opportunity to have clemency, but yet 
the law enforcement profession, the American people have never 
been allowed to have a voice. Yet, these criminals, these 
terrorists, were allowed to have a voice on their own freedom.
    Today we join you, the Senate subcommittee, and all 
concerned Americans about trying to determine why this decision 
was made in hopes that other murderous criminals will not be 
released as long as they have vague promises that they are 
going to abjure violence when they leave prison.
    What basically we have done, through this action of the 
President, is we have opened the door for other inmates across 
the spectrum of criminals in this country to be able to 
negotiate their own release because that is exactly what 
happened in this case. The President of the United States 
allowed for negotiations with criminals on how and under what 
conditions they were going to be released.
    We in the law enforcement profession have been supportive 
of Congressman Fossella's efforts in the House, and we 
supported Concurrent Resolution 180. It passed last week, and 
surprisingly, 43 Members of the House voted against it, which I 
do not understand. While we know that this resolution is not 
binding on the President and it will not reverse the 
President's decision, it is important to make clear to the 
President and to the American people where we stand. And I 
congratulate the Congress--or at least the House--for the 
efforts that they have taken in this matter. Political 
considerations should never be a reason to offer clemency to 
any criminal or any terrorist, especially when the public 
safety is at risk.
    We can make no mistake that the FALN is a militant 
terrorist organization with violent and separatist goals. And 
we will see them again. We have heard the things that they can 
do.
    The claims from the White House that there was no violence, 
that they were not directly involved in the death of anyone or 
injuries of these fine officers or anybody else, I think is a 
slap in the face to the families of the victims, to these 
officers themselves, and to the American people. Anytime that 
we release terrorists in this manner it is a slap in the face.
    It is a slap in the face to law enforcement because, after 
all, we have to deal on the front lines with terrorists and 
criminals throughout this country. We know that violence is a 
serious problem in this country, and the release, the clemency 
has added to that problem.
    It is ironic that they were given the opportunity to 
negotiate and to talk about and to have a joint conference call 
on how they were going to handle this. I do not think other 
inmates are given that opportunity. They had to agree to send a 
letter requesting commutation, and then they have to abide by 
the rules, as are set out by the Parole Commission.
    It is really kind of weird again when we really stop to 
think about it, but they were given all these opportunities and 
still they did not react immediately. Why? Because we know that 
they are committed to continuing their violence, and some day I 
am afraid that they will be out again to bomb and to terrorize 
not only the people of Puerto Rico, but also the people of the 
United States.
    It was mentioned before about the Secretary of State and 
her words about the deadly U.S. Embassy bombings in Africa 
where she vowed to wage an all-out war against terrorism. That 
was a week before this clemency took place. So, now should our 
Secretary of State go out and be saying we are going to wage an 
all-out effort to get terrorists to promise to renounce 
violence? To put it just very straightforward, how lame can we 
as country be that we are going to deal with terrorism in such 
a weak manner?
    We are sending a message to not only foreign terrorists, 
but domestic terrorists, and the wrong message that we are 
sending is that one of these days we will forgive you for those 
acts of violence that you may commit or conspire to commit.
    The President would have us believe that the sentences for 
the terrorists were unjustly harsh. Mr. Chairman, I reject that 
notion. There was justice in the sentences that they received 
by the courts, and I reject any suggestion that we ought to 
free those who wage a war of terror to achieve political ends. 
This is what puts us at a different path than the President of 
the United States, and if I have to differ with the President 
or anybody else on this issue, I certainly will.
    So, the question that we have before us today--and we will 
for many days--is, why was this done?
    Mr. Joe Lockhart, who is the Presidential spokesman, said 
this was a painstaking decision. Again, how lame can they be? 
If you are righteous, you do not have a painstaking decision. 
You make the decision based on the facts and on the correct 
issues. There should not have been anything painstaking about 
this decision. They knew that they were wrong.
    So, that is why you have to question whether this was done 
for political reasons. There are a lot of theories about that 
as to whether this was done for political reasons, as to 
whether this was done to enhance the senatorial campaign of the 
First Lady. She in fact, as we all know, has retreated from her 
original position and advised the President to rescind his act 
of clemency, and I applaud her for that. She finally saw the 
light and she knew that something was wrong by this clemency 
act, but a little bit too late I think. So, perhaps this 
decision was all made in the act of a political patronage 
approach to how they were going to deal with this issue.
    There are other issues out there regarding clemency. Let me 
give you an example in how this differs from those that are out 
there, those others that are under consideration.
    There is a former police officer named Robert Couch who was 
formerly from the Covington, Kentucky Police Department. In 
1989, he was involved in a high speed chase. Anyway, there was 
a confrontation, struggle. The person was arrested. The person 
ultimately was convicted. A year and a half later, after three 
grand juries, this officer was indicted for civil rights 
violations. He was convicted, went through the appeals process, 
and currently is serving 63 months in the Federal penitentiary.
    Thousands of people, including law enforcement 
organizations, across this country have asked the President to 
give this officer clemency. His acts did not amount to 
terrorism or extreme violence. He used necessary force to make 
an arrest, but they made an example out of him. But yet, we can 
get it for terrorists, but we cannot get it for a police 
officer who acted within the scope of his duty. I think that is 
manifest injustice. But on the one hand, the President speaks 
out of both sides of his mouth as to what is justice and what 
is injustice.
    I do not know why the President offered the clemency. It 
does not make any sense to me. And I think as you go further 
into your deliberations, you will find that it is not going to 
make any sense to you because we will never really know the 
truth.
    I know the decision reached here was wrong, terribly, 
terribly wrong. As I would like to say,
    [Spanish spoken.]
    What I said was some day these people will once again be in 
prison because I am certain that they are going to commit other 
acts unfortunately for the American people and the Puerto Rican 
people. So, I think that their ugly head is going to rise 
again, and this country had better be prepared to deal with 
that ugly head of violence, terrorism, and criminal activity.
    Mr. Chairman, I want to thank you and Senator Kyl for 
allowing us to speak today because this is an important matter 
to law enforcement and to the American people.
    I will stand for any questions, Mr. Chairman.
    [The prepared statement of Mr. Gallegos follows:]

               Prepared Statement of Gilbert G. Gallegos

    Good morning, Mr. Chairman and distinguished members of the Senate 
Subcommittee on the Western Hemisphere, Peace Corps, Narcotics and 
Terrorism. My name is Gilbert G. Gallegos, National President of the 
Grand Lodge, Fraternal Order of Police. The F.O.P. is the nation's 
largest organization of law enforcement professionals, representing 
more than 283,000 rank-and-file law enforcement officers in every 
region of the country.
    I had hoped to appear before you today to again urge the President 
to withdraw his offer of clemency to the sixteen convicted terrorists 
and members of the Armed Forces of National Liberation, or FALN to use 
its Spanish initials. Sadly, twelve have already accepted that clemency 
and are, or will be, at large once again. We should make no mistake--
the President has used his constitutional power to release convicted 
terrorists, despite the opposition of Federal law enforcement 
officials, despite the objections from the law enforcement community 
and despite the pleas of the victims and families of the dead killed in 
their wave of bomb attacks.
    Today, the F.O.P., instead of renewing its call to withdraw an 
offer of clemency for terrorist bombers, now joins this Senate 
Subconunittee and all concerned Americans in trying to determine why 
this decision was made in the hopes that we can ensure that no more 
murderous criminals will be released so long as they make vague 
promises to abjure violence when they leave prison.
    The F.O.P. strongly supported House Concurrent Resolution 180, 
offered by Congressman Vito Fossella (R-NY), which passed the House of 
Representatives last week in an overwhelming and bipartisan vote. Only 
forty-three members of Congress voted against the resolution for 
reasons which are unclear to me and virtually every other law 
enforcement officer in our country. While this resolution, or any other 
act of Congress cannot reverse the President's offer, it is important 
that we make clear to the President the views of the law enforcement 
community and the American public. Political considerations should 
never compromise the public safety, and, as the safety of the public 
has been compromised in this instance, it behooves us to learn why.
    Make no mistake, the FALN is a militant terrorist organization with 
violent, separatist goals. Between 1974 and 1983, the FALN staged a 
series of bombing attacks on United States political and military 
targets, mostly in New York City and Chicago. These acts of terrorism 
claimed the lives of six people, Mr. Chairman. Scores were wounded and 
some, including three New York City police officers, were permanently 
maimed by the powerful explosives planted by the FALN.
    Let me describe to you a series of bomb attacks which occurred on 
the evening of 31 December 1982. At close to 9:30 p.m., a powerful 
explosion rocked the building at 26 Federal Plaza. Members of the New 
York City bomb squad arrived on the scene minutes later and just as 
they began their investigation, a second explosion, the blast of which 
could be felt blocks away, occurred at the Brooklyn Federal Courthouse. 
And the night was just beginning.
    Moments later a third explosion ripped into police headquarters at 
One Police Plaza. The blast was so powerful that it blew out the heavy 
glass and frame of a revolving door. This bomb, however, did more than 
several thousands of dollars worth of structural damage to a government 
building. This blast hit Detective Rocco Pascarella, blowing away most 
of his left side. Detective Pascarella survived the blast, but he lost 
his left leg, his left ear and his left eye.
    Detectives Anthony S. Senft and Richard Pastorella of the New York 
City Police Department, who had been on the scene to investigate the 
aftermath of the earlier blasts now realized that there were more bombs 
in the area. The streets were clogged with New Year's Eve revelers, 
many of whom did not speak English and did not recognize the plain-
clothes detectives as police. Many of these innocent by-standers had to 
be bodily removed from the scene.
    With much precious time having elapsed, the two detectives prepared 
to disarm one of the bombs. It went off in their faces.
    Detective Senft was blown backward eighteen feet into the air. He 
found himself blind and deaf with a fractured right hip, his face 
riddled with concrete, metal and other debris. Extensive surgery 
eventually allowed Detective Senft to recover some of the sight in his 
left eye and some of the hearing in his left ear.
    Detective Pastorella was not so lucky. The explosion tossed him 
twenty-five feet, blew off all the fingers on his right hand and left 
him blind in both eyes. He has had thirteen major operations and twenty 
titanium screws inserted just to hold his face together.
    While most people watched the ball drop in Times Square or on their 
television sets, these three officers were fighting for their lives in 
emergency surgery.
    It is true that none of the sixteen terrorists offered clemency by 
President Clinton were convicted of placing any of the bombs that 
ripped through New York City on that tragic New Year's Eve. Yet the 
claims of this White House that none of them were involved in violence, 
nor directly involved in any deaths or injuries is not only false and 
self-serving, but a slap in the face to the families of the six dead 
and the scores of wounded and maimed victims. Law enforcement officials 
worked hard to get these terrorists behind bars, not to extract a 
promise from them to swear off their evil ways and send them on their 
way. It might be remembered that the wave of violence and murder which 
ruled Chicago ended when Al Capone was convicted of tax evasion, just 
as the wave of bombing attacks in the United States ended when these 
sixteen were imprisoned. Should Al Capone also have been granted 
clemency because he was ``not directly involved'' with any deaths?
    Let me review for the record the names and crimes of these sixteen 
terrorists and then allow you to judge for yourselves whether or not 
these individuals were ``not involved'' with the violent acts of the 
group they formed.

  <bullet> Elizam Escobar, convicted on 18 February 1981 of seditious 
        conspiracy (18 U.S.C. 2384), interference with interstate 
        commerce by threats or violence (18 U.S.C. 1951), possession of 
        an unregistered firearm (18 U.S.C. 5861(d)), carrying firearms 
        during the commission of seditious conspiracy and interference 
        with interstate commerce by violence (18 U.S.C. 924(b)), 
        interstate transportation of firearms with the intent to commit 
        seditious conspiracy and interference with interstate commerce 
        by violence (18 U.S.C. 924(c)) and interstate transportation of 
        a stolen vehicle (18 U.S.C. 2312);

Escobar was sentenced to sixty years, and has been released. The 
President commuted his total effective sentence to less than twenty-
five years.

  <bullet> Ricardo Jimenez, convicted on 18 February 1981 of seditious 
        conspiracy (18 U.S.C. 2384), interference with interstate 
        commerce by threats or violence (18 U.S.C. 1951), possession of 
        an unregistered firearm (18 U.S.C. 5861(d)), carrying firearms 
        during the commission of seditious conspiracy and interference 
        with interstate commerce by violence (18 U.S.C. 924(b)), 
        interstate transportation of firearms with the intent to commit 
        seditious conspiracy and interference with interstate commerce 
        by violence (18 U.S.C. 924(c)) and interstate transportation of 
        a stolen vehicle (18 U.S.C. 2312);

Jimenez was sentenced to ninety years, and has been released. The 
President commuted his total effective sentence to twenty-five years.

  <bullet> Adolfo Maltos, convicted on 18 February 1981 of seditious 
        conspiracy (18 U.S.C. 2384), interference with interstate 
        commerce by threats or violence (18 U.S.C. 1951), possession of 
        an unregistered firearm (18 U.S.C. 5861(d)), carrying firearms 
        during the commission of seditious conspiracy and interference 
        with interstate commerce by violence (18 U.S.C. 924(b)), 
        interstate transportation of firearms with the intent to commit 
        seditious conspiracy and interference with interstate commerce 
        by violence (18 U.S.C. 924(c)) and interstate transportation of 
        a stolen vehicle (18 U.S.C. 2312);

Maltos was sentenced to seventy years, and has been released. The 
President commuted his total effective sentence to less than twenty-
five years.

  <bullet> Dylcia Noemi Pagan, convicted on 18 Febraury 1981 of 
        seditious conspiracy (18 U.S.C. 2384), interference with 
        interstate commerce by threats or violence (18 U.S.C. 1951), 
        possession of an unregistered firearm (18 U.S.C. 5861(d)), 
        carrying firearms during the commission of seditious conspiracy 
        and interference with interstate commerce by violence (18 
        U.S.C. 924(b)), interstate transportation of firearms with the 
        intent to commit seditious conspiracy and interference with 
        interstate commerce by violence (18 U.S.C. 924(c)) and 
        interstate transportation of a stolen vehicle (18 U.S.C. 2312);

Pagan was sentenced to fifty-five years, and has been released. The 
President commuted her total effective sentence to twenty-six years.

  <bullet> Alicia Rodriguez, convicted on 18 February 1981 of seditious 
        conspiracy (18 U.S.C. 2384), interference with interstate 
        commerce by threats or violence (18 U.S.C. 1951), possession of 
        an unregistered firearm (18 U.S.C. 5861(d)), carrying firearms 
        during the commission of seditious conspiracy and interference 
        with interstate commerce by violence (18 U.S.C. 924(b)), 
        interstate transportation of firearms with the intent to commit 
        seditious conspiracy and interference with interstate commerce 
        by violence (18 U.S.C. 924(c)) and interstate transportation of 
        a stolen vehicle (18 U.S.C. 2312);

Alicia Rodriguez was sentenced to fifty-five years, and has been 
released. The President commuted her total effective sentence to four 
years.

  <bullet> Ida Luz Rodriguez, convicted on 18 February 1981 of 
        seditious conspiracy (18 U.S.C. 2384), interference with 
        interstate commerce by threats or violence (18 U.S.C. 1951), 
        possession of an unregistered firearm (18 U.S.C. 5861(d)), 
        carrying firearms during the commission of seditious conspiracy 
        and interference with interstate commerce by violence (18 
        U.S.C. 924(b)), interstate transportation of firearms with the 
        intent to commit seditious conspiracy and interference with 
        interstate commerce by violence (18 U.S.C. 924(c)) and 
        interstate transportation of a stolen vehicle (18 U.S.C. 2312);

Ida Luz Rodriguez was sentenced to seventy-five years, and has been 
released. The President commuted her total effective sentence to 
twenty-three years.

  <bullet> Luis Rosa, convicted on 18 February 1981 of seditious 
        conspiracy (18 U.S.C. 2384), interference with interstate 
        commerce by threats or violence (18 U.S.C. 1951), possession of 
        an unregistered firearm (18 U.S.C. 5861(d)), carrying firearms 
        during the commission of seditious conspiracy and interference 
        with interstate commerce by violence (18 U.S.C. 924(b)), 
        interstate transportation of firearms with the intent to commit 
        seditious conspiracy and interference with interstate commerce 
        by violence (18 U.S.C. 924(c)), and interstate transportation 
        of a stolen vehicle (18 U.S.C. 2312);

Rosa was sentenced to seventy-five years, and has been released. The 
President commuted his total effective sentence to less than five 
years.

  <bullet> Carmen Valentin, convicted on 18 February 1981 of seditious 
        conspiracy (18 U.S.C. 2384), interference with interstate 
        commerce by threats or violence (18 U.S.C. 1951), possession of 
        an unregistered firearm (18 U.S.C. 5861(d)), carrying firearms 
        during the commission of seditious conspiracy and interference 
        with interstate commerce by violence (18 U.S.C. 924(b)), 
        interstate transportation of firearms with the intent to commit 
        seditious conspiracy and interference with interstate commerce 
        by violence (18 U.S.C. 924(c)), and interstate transportation 
        of a stolen vehicle (18 U.S.C. 2312);

Valentin was sentenced to ninety years, and has been released. The 
President commuted her total effective sentence to less than twenty-
five years.

  <bullet> Alberto Rodriguez, convicted on 4 October 1985 of seditious 
        conspiracy (18 U.S.C. 2384), conspiracy to make destructive 
        devices (18 U.S.C. 371 and 26 U.S.C. 5861(f), possession of an 
        unregistered firearm (18 U.S.C. 5861(d)), possession of a 
        firearm without a serial number (26 U.S.C. 5861(I)), and 
        conspiracy to obstruct interstate commerce by robbery (18 
        U.S.C. 1951);

Alberto Rodriguez was sentenced to thirty-five years, and has been 
released. The President commuted his total effective sentence to 
twenty-six years.

  <bullet> Alejandrina Torres, convicted on 4 October 1985 of seditious 
        conspiracy (18 U.S.C. 2384), possession of an unregistered 
        firearm (18 U.S.C. 5861(d)), conspiracy to make destructive 
        devices (18 U.S.C. 371 and 26 U.S.C. 5861(f), unlawful storage 
        of explosives (18 U.S.C. 842(j)), and interstate transportation 
        of a stolen vehicle (18 U.S.C. 2312);

Torres was sentenced to thirty-five years, and has been released. The 
President commuted her total effective sentence to twenty-six years.

  <bullet> Edwin Cortes, convicted on 4 October 1985 of seditious 
        conspiracy (18 U.S.C. 2384), possession of an unregistered 
        firearm (18 U.S.C. 5861(d)), conspiracy to make destructive 
        devices (18 U.S.C. 371 and 26 U.S.C. 5861(f), unlawful storage 
        of explosives (18 U.S.C. 842(j)), interstate transportation of 
        a stolen vehicle (18 U.S.C. 2312), possession of a firearm 
        without a serial number (26 U.S.C. 5861(i)) and conspiracy to 
        obstruct interstate commerce by robbery (18 U.S.C. 1951);

Cortes was sentenced to thirty-five years, and has been released. The 
President has commuted his total effective sentence to twenty-six 
years.

  <bullet> Juan Enrique Segarra-Palmer, was convicted on 15 June 1989 
        of robbery of bank funds (18 U.S.C. 2113(a)), transportation of 
        stolen money in interstate and foreign commerce (18 U.S.C. 
        2314), conspiracy to interfere in interstate commerce by 
        robbery (18 U.S.C. 1951), intereference with interstate 
        commerce by robbery (18 U.S.C. 1951), and conspiracy to rob 
        Federally insured bank funds, commit a theft from an interstate 
        shipment, and transport stolen money in interstate and foreign 
        commerce (18 U.S.C. 371);

Segarra-Palmer was sentenced to fifty-five years and a $500,000 fine. 
He has been released and the unpaid balance of his fine waived. The 
President commuted his total effective sentence to less than thirty 
years.

  <bullet> Roberto Maldonado-Rivera, was convicted on 9 June 1989 of 
        conspiracy to rob Federally insured bank funds, commit a theft 
        from an interstate shipment, and transport stolen money in 
        interstate and foreign commerce (18 U.S.C. 371); and

Maldonado-Rivera was sentenced to five years in prison and a $100,000 
fine. The President has waived the unpaid balance of this fine.

  <bullet> Norman Ramirez-Talavera, was convicted on 9 June 1989 of 
        conspiracy to rob Federally insured bank funds, commit a theft 
        from an interstate shipment, and transport stolen money in 
        interstate and foreign commerce (18 U.S.C. 371).

Ramirez-Talavera was sentenced to five years in prison and a $50,000 
fine. The President has waived the unpaid balance of this fine.

  <bullet> Oscar Lopez-Rivera, was convicted on 11 August 1981 of 
        seditious conspiracy (18 U.S.C. 2384), interference with 
        interstate commerce by threats or violence (18 U.S.C. 1951), 
        possession of an unregistered firearm (18 U.S.C. 5861(d)), 
        carrying firearms during the commission of seditious conspiracy 
        and interference with interstate commerce by violence (18 
        U.S.C. 924(b)), interstate transportation of firearms with the 
        intent to commit seditious conspiracy and interference with 
        interstate commerce by violence (18 U.S.C. 924(c)) and 
        interstate transportation of a stolen vehicle (18 U.S.C. 2312);

  <bullet> Oscar Lopez-Rivera, was convicted a second time, on 26 
        February 1988 of conspiracy to escape, to transport explosives 
        with intent to kill and injure people, and to destroy 
        government buildings and property (18 U.S.C. 371 and 
        1952(a)(3)), aiding and abetting travel in interstate commerce 
        to carry on arson (18 U.S.C. 2 and 1952(a)(3), and using a 
        telephone to carry on arson (18 U.S.C. 1952(a)(3));

Lopez-Rivera was sentenced to fifty-five years and fifteen years, 
respectively. He has rejected the offer of clemency, which would 
commute his total effective sentence from seventy to forty-four years.

  <bullet> Antonio Camacho-Negron, was convicted on 9 June 1989 of 
        foreign transportation of stolen money (18 U.S.C. 2314), and 
        conspiracy to rob Federally insured bank funds, commit a theft 
        from an interstate shipment, and transport stolen money in 
        interstate and foreign commerce (18 U.S.C. 371);

Camacho-Negron was sentenced to fifteen years and a $100,000 fine. He 
was released on parole after serving some time, but returned to prison 
in February 1998 for again becoming active in the FALN. He has rejected 
the President's offer of clemency, which would have remitted the unpaid 
balance of his fine.

    As I mention here, the last two did not accept the President's 
offer. While we can all be grateful that there are two less terrorists 
on the streets than the President wanted, the very fact that they were 
given the opportuniry to reject such an offer is a slap in the face to 
law enforcement officers everywhere.
    President Clinton offered these terorrists clemency on 12 August 
and attached certain conditions to their release. First, each must 
submit a signed written statement requesting the commutation of the 
sentence. They must agree to abide by all conditions of release imposed 
by law or the Parole Commission, and renounce the use or threatened use 
of violence for any purpose.
    Let us examine for a moment, the crimes for which these terrorists 
were convicted, because, as the President reminds us, none of the above 
were convicted of killing or injuring anyone. The first and most 
serious crime is seditious conspiracy. At one time, sedition was a 
hanging offense.
    Other offenses for which these violent would-be revolutionaries 
were convicted include a variety of firearms and explosive offenses. 
This Administration cannot seem to decide what message to send--it has 
continually pushed for new gun control laws, has utterly failed to 
enforce the ones on the books and now, it seems, it is willing to grant 
clemency even to those offenders it does manage to lock up. In my 
opinion, the more we examine this case the less sense it makes.
    A week prior to the offer of clemency for these terrorist, 
Secretary of State Madeleine Albright, speaking on the anniversay of 
the deadly U.S. Embassy bombings in Africa, vowed to wage an all-out 
war against terrorism. Did that policy change in just a week? Should 
our Secretary of State have instead promised to wage an all-out effort 
to get terrorists to promise to renounce violence?
    What message are we sending to terrorists--domestic and foreign, 
and what message are we sending to those violating our gun laws?
    Buford O. Furrow, Jr., the man who shot and wounded five at a 
Jewish Community Center was in violation of numerous firearms laws. Yet 
this has not stopped the Administration or others from pointing to this 
tragedy to score political points in favor of additional gun control.
    Mr. Furrow is a racist who committed this heinous act as, in his 
words, ``a wake-up call to America to kill Jews.'' His repugnant crimes 
include many of the same crimes for which the FALN terrorists were 
convicted--felony possession of a firearm and carjacking to name a few. 
Will Mr. Furrow be granted clemency next? How were his crimes any 
different than that of the FALN terrorists? Like Mr. Furrow, they chose 
specific targets--government buildings and government employees. The 
1975 bombing of Fraunces Tavern was aimed at businessmen, whom they 
called ``imperalistic capitalists,'' whose companies did business with 
Puerto Rico. These, too, are crimes of hate--a ``wake-up call'' in a 
war of nerves between the Federal government and these violent Puerto 
Rican separatists. The Administration is pushing hate crimes 
legislation with one hand, and setting free criminals guilty of similar 
crimes with the other.
    Consider the text of S. 1406, a bill introduced by Chairman Hatch 
to combat hate crimes:

SEC. 249. INTERSTATE TRAVEL TO COMMIT HATE CRIMES

      (a) In General.--A person, whether or not acting under color of 
law, who--(1) travels across a State line or enters or leaves Indian 
country in order, by force or threat of force, to willfully injure, 
intimidate, or interfere with, or by force or threat of force to 
attempt to injure, intimidate, or interfere with, any person because of 
the person's race, color, religion, or national origin; and
      (2) by force or threat of force, willfully injures, intimidates, 
or interferes with, or by force or threat of force attempts to 
willfully injure, intimidate, or interfere with any person because of 
the person's race, color, religion, or national origin, shall be 
subject to a penalty under subsection (b).
      (b) Penalties.--A person described in subsection (a) who is 
subject to a penalty under this subsection--
            (1) shall be fined under this title, imprisoned not more 
        than 1 year, or both;
            (2) if bodily injury results or if the violation includes 
        the use, attempted use, or threatened use of a dangerous 
        weapon, explosives, or fire, shall be fined under this title, 
        imprisoned not more than 10 years, or both; or
            (3) if death results or if the violation includes 
        kidnapping or an attempt to kidnap, aggravated sexual abuse or 
        an attempt to commit aggravated sexual abuse, or an attempt to 
        kill--
                    (A) shall be fined under this title, imprisoned for 
                any term of years or for life, or both; or
                    (B) may be sentenced to death.

    These terrorist chose their targets on the basis of national 
origin. They used firearms and explosives to kill Americans, whom they 
falsely perceived to be keeping Puerto Rico in colonial bondage. Does 
the Administration want to punish hate crimes, or release the 
practioners of hate crimes? If Senator Hatch's legislation were law, 
they could have been sentenced to death.
    The Administration strongly supports S. 622, which also would have 
resulted in life sentences for these terrorists:

SEC. 4. PROHIBITION OF CERTAIN ACTS OF VIOLENCE

      Section 245 of title 18, United States Code, is amended--
            (1) by redesignating subsections (c) and (d) as subsections 
        (d) and (e), respectively; and
            (2) by inserting after subsection (b) the following:
      (c)(1) Whoever, whether or not acting under color of law, 
willfully causes bodily injury to any person or, through the use of 
fire, a firearm, or an explosive device, attempts to cause bodily 
injury to any person, because of the actual or perceived race, color, 
religion, or national origin of any person--
                    (A) shall be imprisoned not more than 10 years, or 
                fined in accordance with this title, or both; and
                    (B) shall be imprisoned for any term of years or 
                for life, or fined in accordance with this title, or 
                both if--
                            (i) death results from the acts committed 
                        in violation of this paragraph; or
                            (ii) the acts committed in violation of 
                        this paragraph include kidnapping or an attempt 
                        to kidnap, aggravated sexual abuse or an 
                        attempt to commit aggravated sexual abuse, or 
                        an attempt to kill.

    Under Senator Kennedy's legislation, these terrorists, who targeted 
Americans could have been sentenced to life. Instead, all have been 
released by the President after serving only a fraction of their 
sentences.
    The President would have us believe that the sentences for the FALN 
bombers were unusually harsh. The President also noted that human 
rights leaders like Archbishop Desmond Tutu urged that these criminals 
had served enough time for their violent crimes. I might remark at this 
time that Archbishop Tutu also advocates the release of Mumia Abu-
Jamal, a convicted cop-killer who murdered Philadelphia Police Officer 
Daniel Faulkner in 1981. He was convicted in 1982, and had Post-
Conviction Relief Act (PCRA) hearings in 1995, 1996 and 1997. On each 
of those three occasions, the Pennsylvania Supreme Court upheld the 
conviction and the death sentence. Will he be offered clemency next? 
Why is it, Mr. Chairman that these so-called ``human rights'' activists 
are so selective about who is entitled to these rights? What about 
Danny Faulkner and his widow Maureen? What about Tom and Joe Connor, 
whose father was killed by the FALN? What about Detectives Pascarella, 
Senft and Pastorella? Do they not have rights in the view of these 
advocates? I reject, Mr. Chairman, that there was any injustice in the 
sentences of these sixteen terrorists and I reject any suggestion that 
we ought to free those who aim to wage a war of terror to achieve 
political ends. If this puts me at odds with President Clinton and 
others, then so be it.
    It should also be remembered that President Carter pardoned three 
Puerto Rican nationalists who were convicted in a 1954 shooting attack 
on the U.S. House of Representatives that wounded five law makers. Two 
Congressional pages who were on the floor at the time of the attack 
were later elected to Congress--the late Bill Emerson (R-MO) and 
Representative Paul E. Kanjorski (D-PA). A fourth nationalist, 
convicted of the murder of a Federal law enforcement officer, attempted 
assassination of President Harry S Truman and assault with the attempt 
to kill in 1950, was also pardoned by President Carter in 1979. We 
disagreed with President Carter's decision then, as we disagree with 
President Clinton's now--nationalists whose love of country can only be 
expressed by shooting sprees, assassination plots and bombing attacks 
are nothing more than terrorists.
    At the time of the President's offer of clemency, Congress was out 
of session. I, along with nearly four thousand members of the Fraternal 
Order of Police representing law enforcement officers from every region 
of the country, were at our 54th Biennial Conference. This 
Administration seems to have a penchant for making bad decisions when 
they know media coverage will be scarce.
    In any case, in part because of the efforts of the Fraternal Order 
of Police, the story, once confined to single paragraph Associated 
Press news bulletins, grew. By the next week, the offer was front page 
headlines, with news and political commentators speculating that the 
offer was a calculated attempt to appeal to the 1.3 million voters of 
Puerto Rican descent in the State of New York, where the First Lady may 
run for a Senate seat. In my own letter to the President on 18 August, 
I urged him not to play politics with terrorists and admonished him 
that releasing violent criminals was no way to gain votes or appeal to 
racial pride.
    Whether or not the offer of clemency was indeed made with the aim 
of helping the First Lady's potential campaign for the Senate, I cannot 
say. I can say that I do not understand what possible motive the 
President could have--releasing terrorist to gain votes for his wife 
makes no more sense to me than does the claim that it was an attempt to 
appease ``human rights'' advocates.
    By 25 August, the offer of clemency was a national story, prompting 
the White House to issue a statement: ``There is absolutely no 
connection between the President's decision here and [the First Lady's] 
possible campaign.'' Ten days later, the First Lady publically urged 
the President to rescind his offer. Of course, the terrorist accepted 
the offer three days later on 8 September.
    Thus, we are still left with the question--why?
    We also must factor into our consideration the clemency process, 
described by Presidential spokesperson Joe Lockhart as ``painstaking.'' 
Be that as it may, according to published reports, the clemency offer 
was opposed by the Federal Bureau of Investigation and the former 
prosecutors who brought the cases against these terrorists. The most 
noteworthy news reports, however, revolve around the position of the 
Bureau of Prisons, an agency which only very rarely participates in 
pardon or clemency debates. In this case, they did take a position and 
recommended strongly against the offer. The reports of the tape 
recordings on which these bombers discussed a return to their terrorist 
activities may or may not exist. It is BOP policy to tape record all 
phone conversations which are not protected by attorney-client 
priviledge, but while the tapes are reviewed, they are not necessarily 
retained. The truth is, we may never get to hear the tapes.
    White House sources have stated that former White House Counsel 
Charles F.C. Ruff recommended that the clemency be granted. Other news 
reports reveal that clemency for these terrorist was the top priority 
of Jeffery Farrow, co-chairman of the President's Interagency Group on 
Puerto Rico. Mr. Farrow has recently been included in a Congressional 
probe of potential illegal activities at the Interior Department.
    My question is what was so painstaking about the process? That it 
took Mr. Farrow from November 1997 to obtain the terrorists' release or 
the political and public safety ramifications of ingoring the 
recommendation of Federal law enforcement agencies?
    The President has the power to grant clemency and to grant pardons, 
both are clearly spelled out in the Constitution. There is no 
Constitutional requirement that the motive be pure or the decision be 
sound. Former President and Chief Justice William Howard Taft, writing 
for the Supreme Court in Ex parte Grossman, 267, U.S. 87 (1925), noted, 
``Our Constitution confers this discretion on the highest officer in 
the nation in confidence that he will not abuse it.'' I submit to you, 
Mr. Chairman, that my confidence has been sorely shaken. One can only 
hope that Timothy McVeigh and Terry Nichols are not also on the 
President's list of people to pardon before his term ends. Perhaps 
McVeigh and Nichols were a bit more ``successful'' by a terrorist's 
standards, but there is very little difference in the nature of the 
crimes committed.
    What about William Morales? He is the husband of one of the 
terrorists released last week by the President and is the self-
professed leader of the FALN, described as the ``bombing mastermind'' 
behind the group's wave of attacks. In 1979, he was caught and 
sentenced to 89 years in prison. He served only three months before 
escaping to Cuba where he now lives in relative luxury along with 
numerous other violent criminals who have fled this country. 
Ironically, he is actively applying for amnesty and has asked President 
Clinton to grant him the freedom to return to the country he once 
terrorized. This is a man who once expressed that the people left dead 
as a result of their bombing attacks were ``casualties of war.'' Should 
he, too, be granted amnesty for his crimes as long as he promises to 
never, ever bomb anyone again?
    Who else, then, is on the President's list for pardons and 
clemency? The President has exercised this power on only three previous 
occasions. Once to pardon a perjurer, another time to pardon a person 
convicted of a marijuana drug offense. The offer of clemency to 
unrepentent terrorists, though, certainly seems out of place.
    Just for the sake of comparison, the President has granted clemency 
to sixteen terrorist bombers, but not Officer Robert Couch. Officer 
Robert Couch, formerly of the Covington, Kentucky Police Department, 
was engaged in a high-speed pursuit in August of 1989. The driver, who 
admitted to being suicidal, stopped his vehicle and assaulted the 
officers who had pursued him. After a fight, the driver was charged 
with, among other things, assault on a police officer, and found guilty 
of attempted assault.
    A year and a half later, after three grand juries, Officer Couch 
was indicted for violating the civil rights of the driver and 
obstruction ofjustice. Mr. Chairman, no person--and that includes the 
driver--made complaints of any kind. Despite the indictment, Officer 
Couch was granted a bond of recognizance and continued to function as a 
police officer in Covington.
    Officer Couch was convicted, but permitted to remain free 
throughout the appeals process. The ``obstruction of justice'' 
conviction was overturned by the Sixth Circuit, but denied the officer 
a new trial. Following the exhaustion of all legal means, Officer 
Robert Couch was sentenced to 63 months in prison.
    Mr. Chairman, I do not underestimate the situation at all when I 
say that this is the very definition of manifest injustice. If there is 
anyone who ought to be extended an offer of Presidential clemency it is 
Officer Robert Couch. He is an honorable man and a good law enforcement 
officer. I cannot understand why the President is pardoning terrorists 
when the Fraternal Order of Police and thousand of others have written 
in to support clemency for Officer Couch. The power of the President to 
grant clemency and issue pardons is supposed to correct injustices, not 
commit them.
    I do not know why the President offered clemency to sixteen Puerto 
Rican terrorists. I believe that even if I did know why, it would not 
make any sense to me. Perhaps it was a political maneuver which 
backfired, or perhaps it was a genuine effort to appease ``human 
rights'' activists. I do know, however, that the decision was reached 
and for whatever reason it was decided, it was wrong. Terribly, 
terribly wrong.
    Mr. Chairman, I want to thank you and the other members of this 
distinguished Subcommittee for inviting me here this morning to offer 
the views of the Fraternal Order of Police on this matter. I would be 
pleased to answer any questions you may have for me.
                                 ______
                                 
            Grand Lodge, Fraternal Order of Police,
                                   Albuquerque, New Mexico,
                                                   August 18, 1999.

The Honorable William Jefferson Clinton
President of the United States
The White House
1600 Pennsylvania Avenue, NW
Washington, DC.

    Dear Mr. President: I am writing this letter on behalf of the more 
than 283,000 members of the Fraternal Order of Police to express our 
vehement opposition to your offer of clemency to sixteen convicted 
felons involved with a wave of terrorist bomb attacks on U.S. soil from 
1974-83. I would also like to express my own personal confusion and 
anger at your decision.
    Your offer of clemency would immediately release eleven convicted 
felons who conspired as members of the FALN to plant and explode bombs 
at U.S. political and military targets. The remaining five would have 
their criminal fines waived and only two would serve any additional 
time. These attacks killed six people, wounded dozens and maimed three 
New York City police officers: Detective Anthony S. Senft lost an eye 
and a finger, Detective Richard Pastorella was blinded and Officer 
Rocco Pascarella lost his leg.
    Your claim that none of these people were invoived in any deaths is 
patently false. As members of the terrorist organization that was 
planting these bombs, all of them are accessories to the killings as a 
result of the bomb attacks. Two of the persons to whom you have offered 
clemency were convicted of a $7.5 million armored truck robbery, which 
undoubtedly financed the FALN's 130 bomb attacks.
    These are not Puerto Rican patriots, these are convicted felons who 
are guilty of waging a war of terror against Americans on American soil 
to accomplish their political objectives. Why are you rewarding their 
efforts?
    I can only assume you are again pandering for some political 
purpose. This time, Mr. President, it must stop before it begins.
    The ``human rights advocates'' who are so concerned about the 
plight of these killers have never shed a tear for the victims. These 
``human rights advocates'' are the same people and organizations who 
maintain that the United States routinely abuses the rights of its 
citizens and who issue reports stating that our state and local police 
officers are nothing more than racist thugs who enjoy brutalizing 
minorities. These ``human rights advocates'' are the same people and 
organizations who clamor for the release for Mumia Abu-Jamal, a 
convicted cop-killer, and raise money for his defense.
    I do not know, Mr. President, how they decide which rights to 
advocate and which to ignore, but it seems that murderers and 
terrorists are more entitled to them than victims. Do not offer 
clemency to sixteen convicted felons to placate ``human rights 
advocates.''
    I would also strongly urge you to reject any inclination or polling 
data that indicates this will generate sympathy for you or for a 
Democratic presidential candidate among Hispanic-Americans. As an 
Hispanic-American myself, I can assure you that releasing violent 
convicted felons before they have served their full sentences and to 
waive tens of thousands of dollars in criminal fines, is no way to 
appeal to racial pride.
    I sincerely hope, Mr. President, that this ill-conceived notion is 
consigned to the pile reserved for horrendously bad ideas. Many of the 
best accomplishments of your presidency stemmed from your commitment to 
law enforcement and to police officers.
    This aberration would surely eclipse all we have done to date to 
keep America safe. Police officers around the country, including me, 
have stood side by side with you in fighting violent crime and 
supporting your community policing initiatives. Caving into these 
advocates is a slap in the face.
    I look forward to hearing from you about this matter.
            Sincerely,
                                       Gilbert G. Gallegos,
                                                National President.

    Senator Coverdell. Thank you, Mr. Gallegos. I appreciate it 
very much.
    As I indicated to Mr. Connor, there will be another 
hearing. I think it is scheduled for tomorrow where the 
Judiciary Committee will also be reviewing mainly the process 
issue; whereas, we have been very focused on the policy.
    As I mentioned on the floor last week, I think it is very 
important. Well, I quoted a New York Times editorial that was a 
tortured attempt to exonerate or to support the President's 
decision, but even the editorial struggled with the mixed 
signal that is being sent. Then the editorial talked about the 
President being all too silent on the subject, which of course 
has been reinforced here today by the refusal of the 
administration to make itself accountable to the Congress or to 
take the opportunity to explain its own view of these 
circumstances.
    Mr. Fossella, I hope that you will join us in an inquiry. 
It raised itself here in several of the comments, but I 
mentioned it prior to the testimony here. Who has been notified 
of this? I do not know where the judge is that had this 
exchange about a death penalty and being told, a United States 
Federal judge, that if we could assassinate you, we would do 
so. I do not know how many people are in harm's way here, and I 
think it is important that we discover that and determine what 
has been done to assure their safety.
    Let me ask you this, principally the law enforcement 
officers. Congressman, you might want to respond to it as well. 
Senator Sessions last week in his presentation--he is a former 
district attorney and prosecutor--spent most of his time on the 
work of people like yourselves, law enforcement officers. He 
made the case that this signal--I have tended to focus on it in 
the context of what it says to the terrorist community or 
people that are contemplating engagement in this type of 
activity, but he focused on it principally from its effect on 
law enforcement itself, people who are spending every day and 
every night on the street, that thin line between a person's 
safety and a harmful act.
    I would like the law enforcement officers to comment on 
their view of this as it would relate to the morale of active 
duty officers engaged in these activities right now. What does 
it say to them? The question is, does it say I should not put 
myself in harm's way? Let us begin with you, Detective Senft.
    Mr. Senft. Well, Senator, it demoralizes your whole concept 
of being a law enforcement officer. Virtually police officers 
throughout the United States go out there and think that they 
can do some sort of good for their community, and when these 
things happen and they strike you, it has a rippling effect 
throughout the whole United States. And we are there to do the 
right thing, contrary to what anybody thinks.
    I will speak for New York City. We have 40,200 police 
officers in the city of New York. That is a lot of police 
officers. My understanding is we are the 18th largest army in 
the world. Obviously we have some good. We have mostly good 
police officers and we have very few that are bad. But we have 
our bad, like any other occupation.
    This destroys the heart and soul of every police officer 
that is out there doing what he has to do. It is in vain.
    I just want to reflect on one point. I do not mean to go 
off the subject, but 2\1/2\ years ago, my wife and I wrote the 
President concerning this clemency offer.
    Senator Coverdell. Two and a half years ago.
    Mr. Senft. Two and a half years ago we wrote Janet Reno one 
letter, our President two letters, and since this is going on 
for the last 4 weeks, we have sent two more letters with 
absolutely no response.
    Senator Coverdell. Were any of the letters responded to?
    Mr. Senft. None of them, Senator, not one response.
    Senator Coverdell. What caused you to write the letter 2 
years ago?
    Mr. Senft. Well, I was aware of the clemency. I had seen on 
one of the TV or history channels that William Morales was 
looking for amnesty to come back into the States to visit his 
mother. I say, stay where you are in Cuba with Joanne Chezama. 
So, he is looking to come back into the country.
    We have said we should start writing some letters and find 
out from our President and from Janet Reno what is actually 
going on, and we could not get any response. Nothing at all.
    Senator Coverdell. So, you wrote the President----
    Mr. Senft. Yes.
    Senator Coverdell [continuing]. And the Attorney General.
    Mr. Senft. That is correct.
    Senator Coverdell. And you raised questions about what 
might be happening, and there was no response whatsoever.
    Mr. Senft. No response. Since this has been going on for 
the last 4 weeks, we wrote an additional two letters.
    Now, about 2\1/2\ weeks ago, I was on a local TV channel 
with an activist for the FALN and her name was Alice Cordova. 
And she was a nice lady. She had her opinion and she can have 
her opinion because this is America. I think I read it 
somewhere that this was America. I have been embarrassed the 
last 4 months to be an American because of what is going on.
    She told me, she said to me, Detective Senft, why did you 
not get involved in this 2\1/2\ years ago or 3 years ago? I 
said, we did. She said, well, we had a sit-down meeting with 
Janet Reno. I said, ma'am, I could not even get a letter 
answered from Janet Reno or from my President. And I am an 
American. When my children leave my house--and I have four 
sons--they leave with an American flag. Well, I was embarrassed 
that day to be an American, that I cannot get even a letter 
from my President.
    Now, I do not expect him to handwrite it, obviously. We 
know that, but there is an awful lot of people surrounding our 
President that could possibly just send us a note and say, 
look, the decision has been made. We are sorry that you are 
concerned. I am sorry you were injured. I am sorry your life 
has been totally changed, but our decision has been made. I 
would have respected him for that decision, not that I agree 
with it, but I would respect the fact that he has that power to 
make that decision. It is ironic that these things are 
happening, that you cannot even get an answer from your own 
country.
    Senator Coverdell. I am surprised. That is very, very 
informative that neither the Attorney General's office nor the 
White House would answer a letter from any citizen. It is hard 
to believe, and I believe it.
    Mr. Senft. I have written to Presidents before and I have 
got very prompt answers.
    Senator Coverdell. But on this subject, no answer.
    Mr. Senft. Not on this subject at all, no, sir.
    Senator Coverdell. It is quite amazing.
    Mr. Pastorella, do you have a comment to make?
    Mr. Pastorella. I do. I want to thank publicly Congressman 
Fossella's office and Congressman Fossella more directly for 
sending a telegram to the President on our behalf asking that 
we at least be given the privilege of giving a victim's impact 
statement to him. As I understand it, no response to that 
either.
    Senator Coverdell. Is that the case, Congressman?
    Mr. Fossella. That is correct.
    Mr. Pastorella. The fact that our President has taken this 
stand on the freeing of these FALN terrorists strikes at the 
very heart of every law enforcement officer, at our confidence 
that we will be backed up by our Government for the actions 
that we perform on behalf of our citizenry. It is a disgrace 
that this has been perpetrated upon us. I cannot understand. I 
cannot fathom in my mind what would prompt our President to do 
this to us. We stand in the breach between chaos and civility.
    He certainly knows well that this organization, the FALN, 
uses and prefers to use the bomb which is indiscriminate and is 
a weapon of mass destruction and the bullet and the gun to make 
their point, when in this beautiful, great country of ours, the 
first amendment is there for us to express ourselves, as we are 
here this day, in total freedom. We can express ourselves as 
long as it does not impinge on the rights of others. And that 
is what we are exercising here today.
    Senator Coverdell. I thank you, Mr. Pastorella.
    Mr. Gallegos, you raised your hand a moment ago. I was just 
coming down the table.
    Mr. Gallegos. Mr. Chairman, I too wrote to the President 
about this matter and have not received an answer to my letter. 
This was shortly after the first small bits of news were coming 
out regarding the clemency.
    I have written to the President. I have been President of 
the FOP now for 4 years, and I have written to him on numerous 
occasions and have always received answers to my letters. To 
this one I have not received an answer.
    And to another letter that I sent early on in the summer. 
This is regarding relations with Cuba, which brings up the 
issue of Mr. Morales, who is a wanted criminal and sanctioned 
to be in Cuba. I wrote to the President regarding other people 
who are in Cuba, Joanne Chezamar, who was involved in killing 
of a police officer several years ago and escaped from prison. 
There are three people that were escapees from New Mexico where 
they were involved in killing a State police officer and are 
now in Cuba. Now the administration wants to move toward 
normalizing relations with Cuba, which is a harbor for 
terrorists and criminals from the United States.
    I think more importantly what this does is it kind of 
reinforces our notion that there is a common bond starting to 
emerge here where people that are criminals or violent 
terrorists, that they are some day going to be welcomed back 
into the United States and everything is all right. And that is 
what is emerging from this behavior by the President and this 
clemency action of the President.
    It is very disconcerting to law enforcement because, as has 
been said, we are the front line between violence and safety 
for the American public, and when we have stood with the 
President of the United States--and I have personally stood 
with the President of the United States on several occasions--
on the 100,000 police officer initiative, which I think is well 
worth the effort and I thank the Congress for the fact that 
they funded that program. On other law enforcement issues, we 
have stood shoulder to shoulder with the President, but with 
this action, all the good that has been done has been wiped 
away because of the total disregard for not only the victims of 
these criminals, but also for the good senses of law 
enforcement as to how we feel about clemency for terrorists and 
criminals. So, I think it has pretty much negated all the good 
that has been done by law enforcement over the last almost 8 
years.
    Senator Coverdell. I appreciate your comment.
    Mr. Connor, it looked to me like you were perusing your 
papers there and you have your own comment about this.
    Mr. Connor. Yes, I have actually two things that I just 
want to touch on. One of them is regarding Mr. Morales and the 
communication between us and the Department of Justice. I 
actually did receive a letter back from the Department of 
Justice on this issue. I have been following up since 1990 or 
thereabouts on the status of Morales and the 16 in prison and 
have had regular communication with various parts of the 
Government.
    In a January 6, 1998 letter I received, where I had asked 
that there be more recognition by the U.S. Government of the 
FALN, the fact that they were a terrorist organization--that 
was the point of my letter--and why, when we talk about 
terrorism, the FALN had kind of been forgotten. The Islamic 
side of it got the headlines, if you will.
    And in this letter, I am just going to quote something 
here. For your information, Morales' hands were blown off and 
part of his face when he was building a bomb in New York City 
in 1979. He escaped from prison. I do not know how a guy with 
no hands escapes from prison, but he did. In any event, he was 
found in Mexico where he was arrested for killing a police 
officer in Mexico. In 1988 he was extradited to Cuba upon his 
request.
    This is a quote from a letter from the Justice Department. 
It says, ``Mexican authorities released Morales from prison 
after he had served 5 years, rejecting a long-pending U.S. 
extradition request on the grounds that Morales was `a 
political fighter for the independence of Puerto Rico.' The 
United States expressed its disagreement with this decision''--
it sounds familiar--``stating that the U.S. Government was 
deeply disturbed that an individual with Morales' record of 
criminal behavior would even be considered for possible 
political refugee status. Since 1988 the Government of Cuba has 
apparently provided safe harbor for Morales.''
    The Mexicans did what we have done and we condemn them for 
it.
    The other thing I just wanted to bring up is the Victims 
Act, and I just want to quote that too, if I might, while I am 
on a roll here. Under the Victims Rights and Restitution Act of 
1990, a responsible official was to provide victims with the 
earliest possible notice of the release from custody of the 
offender. The law reads--and it goes into the section of it, 
but in quotes, ``after trial, a responsible official shall 
provide a victim with the earliest possible notice of release 
from custody of the offender.'' That never happened. I do not 
know if it happened with you guys, but it certainly did not 
happen with me.
    So, I think these are interesting to say the least. Thank 
you.
    Senator Coverdell. Congressman, Mr. Pastorella was holding 
his hand up. I do not know if he sought recognition.
    Mr. Pastorella. I do.
    Senator Coverdell. If somebody would move that mike for him 
please.
    Mr. Pastorella. I do, if I may. I also have something to 
say about Mr. Morales enjoying his freedom in Havana. At the 
time, in 1978, he was in a Queens apartment using it as a safe 
house to build his bombs when a bomb exploded in his hands, 
ripping off both hands and part of his face. At the time of his 
arrest, he had in his possession over 350 pounds of incendiary 
chemicals, pipe bombs in various stages of manufacture, timing 
devices, blasting caps, 66 sticks of dynamite that had been 
deteriorated, making it highly sensitive. He had four weapons, 
two carbines, a sawed-off shotgun, over 1,000 rounds of 
ammunition in his possession.
    He ultimately was sent to Bellevue Hospital prison ward. 
Allegedly a guard was bribed. He had only one finger on each 
hand left and he was alleged to have climbed out of a window 
after cutting the wires and the bars on that window in the 
hospital room that he was in, climbing down over 40 feet on 
bandages.
    He ultimately was freed, went to Mexico, and there he 
planned the bombing in 1982. How do I know this? It was in an 
Associated Press release by Roberto Santiago, a reporter, who 
had a face-to-face meeting with Mr. Morales in Havana in August 
1993, and that is where this information was garnered.
    I fear that, as part of the normalization process between 
the United States and Havana, Cuba is set into motion, that Mr. 
Morales will be a bargaining chip in that process. He was freed 
from his cell in Mexico after he was arrested when his personal 
bodyguard, a Mr. Contreras, was killed in a shoot-out with the 
Mexican police where a Mexican police officer was killed, and a 
Mr. Raul Gomez Tretto, the Justice Minister of Havana, 
engineered and worked out the process where he could be 
released into their custody, and has since, while in Cuba, 
received a masters degree in international relations in 1992 
and is currently working on his doctoral thesis in 
international relations, which I contend in the mind of Mr. 
Morales is the shaking of your hand with a smile on his face 
while with his left hand he puts a stick of dynamite in your 
back pocket.
    That is the kind of person we are dealing with here. This 
is the mind set of the FALN. This is the savage beast that we 
are confronted with now on the streets of America.
    Senator Coverdell. I appreciate your comment.
    Congressman Fossella?
    Mr. Fossella. Yes, if I may, Mr. Chairman. I did not get 
the opportunity earlier to thank Mr. Gallegos for all his 
efforts. He has been very supportive and does a great job, I 
think, representing the police officers across the country.
    You asked the question of what it does to the morale and 
what signal it sends. In my view, it emboldens the guilty. It 
emboldens terrorism and it invites terrorism.
    Many of my neighbors on Staten Island--I am very proud to 
represent a community that has a lot of law enforcement 
officials, retired and active. They feel betrayed by this act. 
Any innocent American walking out the door in the morning, the 
last thing they think about is going to a restaurant, for 
example, like Mr. Connor's father did, and dying because of 
beasts or terrorists. But a law enforcement official leaves the 
spouse always with the fear that that phone call may come, that 
they never return. This happened a few times in Staten Island 
over the last year. But they have a higher calling. They have a 
higher purpose because they feel that the system or their 
government or their people's representatives like you will 
never let them down.
    Well, we have done that for the last 15 years or so while 
these people have served in prison. As you heard Detective 
Senft, there was some solace knowing that. That is gone now.
    You mentioned Mr. Morales, the second point, about feeling 
sorry for these individuals because they were not near the bomb 
scene, despite the fact that there are videotapes of them 
making bombs. Mr. Morales, in 1993 a newspaper article 
mentioned two important things in my mind.
    One is he said that this FALN group had a collective 
leadership, that he was proud that he was not just the master 
mind, but it was a collective leadership, which leads one to 
believe that these people were intimately involved in all those 
bombings.
    And second these individuals, these heroes here, were 
casualties of war, that they were not innocent victims, that 
they did not prepare properly, but merely casualties of war. 
They have not changed that ideology. They have not changed 
their attitude.
    When I talked about earlier emboldening the guilty, they 
are proclaiming right now in Puerto Rico and in Chicago where 
they have been released, that they will continue their cause. 
They are meeting. They have met in the last 24 hours, several 
of them.
    Senator Coverdell. Is that not a violation of the agreement 
they entered into with the President?
    Mr. Fossella. That is a question I hope that the Senate 
takes up and I know the House will. The signals that have been 
sent over the last several weeks, if you recall, Senator, one 
of the reasons why they were rejecting the offer of clemency 
was because they feared that they would not be able to meet 
with one another and that was holding up the clemency offer and 
the acceptance. Now we are told that they are meeting.
    Again, what is going on here, what is the story, what are 
the issues? That is why Mrs. Clinton changed her mind because 
she said the silence for 3 weeks spoke volumes. Well, I think 
the silence of this administration speaks volumes for not 
having someone here today to explain to you, the Senate, the 
American people, and especially these victims what went on 
here.
    So, we hope to undertake and get some responses to these 
questions, but it has been nothing but a free-for-all the last 
several weeks.
    Senator Coverdell. I think I know what the response would 
be, but I still want to air it a little bit. The point I have 
had the most difficulty with is the White House's attempt to 
distinguish between categories of activism. Under this theory, 
as I have said, bin Laden would be in a different category than 
the emissaries of his organization that actually planted the 
bombs at the embassies in Kenya and Nairobi. But the White 
House, as best I can judge, has made this a center point of the 
argument with regard to clemency that they did not actually 
plant the bombs directly. Of course, as Senator Sessions 
pointed out on the floor, one of the reasons is they were 
apprehended before they could do so, and they actually had 
equipment and weapons in their vehicles.
    But I would be curious as to any comment any of you would 
have with regard to this kind of distinction that occurs 
between a plotter, planner, and instigator vis-a-vis somebody 
who actually pulls a weapon or sets the weapon down. That 
distinction is very difficult for me to make. I mentioned this 
New York Times editorial. It is kind of a tortured attempt to 
create some distinctions here. But do any of you have a comment 
with regard to that distinction?
    Mr. Gallegos. Mr. Chairman.
    Senator Coverdell. Yes, Mr. Gallegos.
    Mr. Gallegos. In American jurisprudence, as we all know, 
the driver of a getaway vehicle is as guilty as the people that 
go in and rob a bank. What this does is it does set up the 
different avenues of defense to say, well, I was only the 
driver or I only made a phone call. It throws up all kinds of 
legal challenges that may come on down the road in other cases. 
I think it really sends a terrible message out there that now 
you can challenge all these by degree.
    I do not think that the White House thought this through, 
and I do not think that they really thought about the 
conspiracy ideas and that they in fact could be part of a 
criminal act. That is what these people were convicted for, for 
taking part in criminal acts. It is very disturbing that the 
messages are sent out.
    So, I think that it really puts the whole legal system and 
the criminal element in a tailspin.
    Senator Coverdell. Mr. Connor.
    Mr. Connor. In assassinations, if I remember my history 
right, John Wilkes Booth--well, his conspirators were executed 
for being just that, conspirators. No one said they pulled the 
trigger and shot Mr. Lincoln, but they were involved. They gave 
safe harbor to Booth and plotted with him. This is a very 
similar situation.
    First of all, I do not know that they did not place the 
bomb. For all I know, they did. But they were certainly part of 
this small organization. It was not 1,000 members. It was a 
small group and they were intimately familiar with the goings 
on. As Congressman Fossella points out, they were a collective 
leadership, and I do not know how you can separate those who 
conspired versus the actual people who committed the 
atrocities.
    And the other point is Puerto Rico has had the ability to 
vote on independence. So, what were they actually trying to 
accomplish by this? They knew that they did not have the vote 
for independence, and that was the only way to get it. So, what 
were they doing? The only answer is they were trying to change 
America, not Puerto Rico. They were trying to change the way 
the American system works and the American Government, which I 
believe is sedition, and that is what they were convicted of.
    They have claimed that the seditious conspiracy is a 
political charge, but in their case that was the only thing 
that they really were trying to do. It was a perfectly 
legitimate charge. They were brought up on real charges and had 
a real trial.
    They did not even recognize the United States' ability to 
try them, so they chose not to testify, which they are using 
now on their behalf. They did not testify, so therefore they 
should be released. That just does not wash. It is like going 
to an exam unprepared and saying, well, if I had gone to your 
class for the last 6 weeks, I would have done great. There is 
no correlation there. They had a conscious decision and they 
turned it down.
    Senator Coverdell. Congressman Fossella.
    Mr. Fossella. Yes, just briefly, Mr. Chairman, echoing what 
these gentlemen said, but also I find this whole thing bizarre, 
that the Justice Department admits in a letter to Mr. Connor 
these people are terrorists, and yet now they are saying, well, 
they really were not at the scene.
    But I am sure you and any law enforcement agency or any 
American with an ounce of common sense would recognize that, to 
coin a phrase, it takes a village to pull off these terrorist 
activities, especially after they even admit that they were 
part of this organization.
    I think what we do is we start allowing those who call 
themselves freedom fighters or call themselves political 
prisoners--let us say, for the sake of argument, Cobb County in 
Georgia decides to secede from Georgia. A band of individuals 
get together and say they want to secede, so they start 
planting bombs around Cobb County and other parts of the State 
capital because they do not get their way. They call themselves 
freedom fighters. They are convicted and sentenced to jail. 
Does anybody with reason think that they should be set free, 
that they are legitimate freedom fighters? No. They seek to 
replace the rule of law because they do not get their way by 
planting bombs and killing people. It is not unlike every other 
terrorist organization around the world or in his country.
    As you mention now, I think, so well, if in 15 years the 
then-President steps forward and says Terry Nichols was nowhere 
near the bomb scene in Oklahoma City, he should be set free, I 
think you would experience outrage across this country you 
never would have seen before. But you will not see that day.
    So, for those who want to classify or characterize 
terrorists in their own sort of way, I think they have the 
wrong idea of what America is all about.
    Senator Coverdell. Gentlemen, I want to thank each of you 
for again your service to your country. Mr. Connor, you are not 
a police officer, but you obviously have developed an affinity 
for them, and you have worked long on their side and on behalf 
of your family on this for a long time. I thank you for that. 
You are one of the eyes and ears and vigil of America. And, 
Congressman Fossella, for your distinguished work on the 
matter.
    We will embrace the questions that were raised here. We 
will be working on them as a committee. We will also turn them 
over to the Judiciary Committee and the Intelligence Committee 
as well, as this ongoing effort to try to understand what is 
happening here.
    But, as I said in the beginning, my main objective right 
now is to try to make certain or diminish the confusion that 
this decision may have caused. If the people's branch of 
Government can be very straightforward and forceful here, I 
hope it is of comfort to the law enforcement community, to the 
victims, Mr. Connor and others, and to the world that there is 
a very large majority of the United States that is still wedded 
to the theory, no concession, no negotiation, no deals, do not 
do it, or there will be swift and harsh punishment.
    I thank each of you for making yourselves available, for 
your service to your country.
    And with that, I will adjourn this meeting. Thank you very 
much.
    Mr. Senft. Thank you.
    Mr. Pastorella. Thank you.
    Mr. Connor. Thank you, Mr. Chairman.
    Mr. Gallegos. Thank you.
    Mr. Fossella. Thank you very much, Mr. Chairman.
    [Whereupon, at 10:45 a.m., the subcommittee was adjourned.]

    [The following statement was submitted for inclusion in the 
record:]

        Prepared Statement of John Harrison, FALN Bombing Victim

    My name is John Harrison. I would like to thank the Committee for 
the opportunity to make a statement regarding the recent offer of 
clemency for and subsequent release from prison of certain members of 
the FALN. On January 24, 1975, I was having lunch at Fraunces Tavern in 
New York City. That experience is burned in my memory, as it is in the 
minds of other victims of various FALN bombings, some of whose 
experiences are similarly being related in statements to you.
    The bomb consisted of multiple sticks of dynamite inside a satchel 
placed in a back room of the restaurant which was filled with innocent 
people. There was an enormous explosion. I remained conscious at the 
time and remember vividly the ceiling collapsing, my luncheon companion 
literally flying over the table in front of me, and I remember doing 
what felt like a back flip as the chair flew up in the air and came 
crashing to the ground. I could not walk and remember crawling across 
the floor to the light I could see through the blown out windows, 
hearing the screams of terror and pleas for help of those seriously 
wounded at the time. I saw first hand what dynamite does to human 
flesh. I will spare this Committee the details of that vision, but 
would only suggest that one only need think of the recent photographs 
of the horrors at Kosovo, and the mindless slaughter of human beings 
there to have a feeling for what it was like at Fraunces Tavern in 
1975.
    Four people were killed in the bombing. My own injuries healed over 
time and pale in comparison to the loss suffered by the Connor family 
and the three other families who lost loved ones. I came to this 
hearing today to make absolutely sure that the members of this 
Committee understand from first-hand witnesses the horror of atrocities 
like this committed by the FALN. The FALN claimed responsibility for 
this bombing and were implicated in over 100 other bombings around the 
country.
    Proponents of clemency have rightfully stated that none of the 
terrorists were specifically accused of the Fraunces Tavern bombing. 
Most of the terrorists were convicted of Seditious Conspiracy as well 
as various firearms and explosives violations. Some of those recently 
released from prison were arrested in Evanston, Illinois inside a van 
loaded with arms during an attempted robbery of an armored truck that 
was scheduled to make a pick up at Northwestern University. Luckily the 
police intervened prior to the actual robbery taking place. Later, one 
of those convicted agreed to cooperate with the government and provided 
information regarding the FALN's underground operations. This informant 
outlined in the various publicly-available court documents, which I am 
sure the Committee already has, how FALN members were taught to 
manufacture bombs, how to transform a pocket watch into a sophisticated 
timing device for setting off explosives, and how members were schooled 
in the art of writing communiques so that terrorists could take 
``credit'' for the destruction for which they were responsible. Another 
group of the terrorists just released included those involved in 
organizing an escape plan for certain members of the FALN from prison. 
These arrangements included the purchase of weaponry and C-4 
explosives. Again, all of this information is available and I hope and 
pray was taken into account prior to the clemency offer. It is just 
hard for me to understand if these facts were taken into account, how a 
clemency offer could possibly be justified.
    Seditious Conspiracy is a serious matter. I should emphasize that I 
am not an attorney, but my reading has suggested that it means a 
conspiracy to levy war or to oppose U.S. authority by force. There is 
no question that these individuals were guilty and convicted of this 
crime, plus were convicted of various other arms violations. It is 
useful to note that the terrorists, in the course of the legal 
proceedings, took the position that they were being held as prisoners 
of war and that the U.S. courts did not have jurisdiction in the 
matter. The evidence against them was conclusive and included, among 
other things, audio tapes and video tapes of various of the terrorists 
in the course of their activities including a videotape segment of the 
terrorists in ``safe houses'' handling bomb-making materials and 
cleaning weapons. Court documents pointed out that the recovered 
bombing paraphernalia and timing mechanisms bore the unmistakable FALN 
``signature''.
    Law enforcement professionals risked their own lives to disable 
this paraphernalia and to take the steps necessary, all in accordance 
with approved legal procedures, to bring these terrorists to justice. 
If ever there was an example of Seditious Conspiracy, this is it.
    Now I ask you, would it have been better for the law enforcement 
professionals to have simply waited until these same materials were 
used to kill a few more people and then have arrested the individuals 
and tried them for murder? I think not. Rather than waiting for more 
needless slaughter, the law enforcement people stepped in and arrested 
these individuals and proceeded with the charges of Seditious 
Conspiracy and other charges.
    Ladies and Gentlemen of the Committee, it is my sincere hope going 
forward we can provide the proper motivation for law enforcement 
professionals to identify, prosecute and incarcerate terrorists prior 
to their murdering people. I prefer it that way. Those who stand back 
and say, ``well, these people weren't guilty of the Fraunces Tavern 
bombing'' and ``did not kill anybody'' should bother to read the court 
documents. What matters is that they were convicted of Seditious 
Conspiracy and appropriately sentenced.
    You will hear from other officers who have been permanently maimed 
as a result of the FALN's activities. We do not know if any of the 
individuals in prison were directly responsible for placing one 
particular bomb versus another. Are we to tell these officers who are 
permanently scarred as a result of their actions to protect all of us, 
``don't bother next time, just let them kill some more people so we can 
try them for murder?''
    I was not around when the Seditious Conspiracy statute was 
formulated. Somehow I doubt any of you were either. However, it seems 
to me that it operates to enable us as a society to help prevent the 
kind of needless slaughter of individuals which the FALN viewed as a 
necessary part of their program.
    Tom Stoppard in a recent description of a play by Max Frisch called 
``The Fire Raisers'' described the play: ``The play is set in a 
household of a family. Someone is burning down buildings in the town. A 
sinister lodger insinuates himself in the household. He is joined by a 
second stranger. They both live upstairs. Periodically, they leave the 
house and return. Each time, a building burns down. The household, 
particularly the Father of the household, resists drawing the unwelcome 
conclusion, even after the two lodgers are found to be stockpiling cans 
of gasoline in the attic. Finally, the sinister lodger comes downstairs 
and asks for a box of matches. The Father gives him the matches, and 
explains defensively, `well, if they were the fire raisers, they would 
have their own matches, wouldn't they?' Then the house goes up in 
flames.'' \1\
---------------------------------------------------------------------------
    \1\ New York Review of Books, September 23, 1999.
---------------------------------------------------------------------------
    Ladies and Gentlemen, as we approach the year 2000, I would submit 
that one of the major challenges we will have as a society in the next 
century is dealing with forms of terrorism we can now only begin to 
imagine. Sending a signal at this time that we are weak on terrorists 
or sending a signal to our law enforcement people that they can spend 
years of their lives to bring terrorists to justice and then have the 
result be the premature release of the same terrorists back on the 
streets is indeed handing these terrorists the matches.
    So what am I asking? I am asking that the Committee ensure that the 
appropriate legislation is in place and being enforced to help prevent 
these atrocities from happening going forward. I am asking that the 
Committee seek copies of the reports which I am told exist from each of 
the various law enforcement agencies and other parties, including the 
Bureau of Prisons, which in turn, were summarized in a document for 
review by the President. It is my understanding that this document 
summarizing these various reports has not been made public. Why not? If 
clemency is justified in this circumstance, surely the justification 
would be included in the reports mentioned above. Alternatively, 
perhaps, the President would care to enlighten us as to why 
specifically he took this action. Nobody questions his right under the 
law to do so. I am questioning his judgement in doing so, and my guess 
is the majority of the American people are asking the same question.
    I would like to emphasize that I have no opinion one way or the 
other relative to the political situation in Puerto Rico. In fact I 
would strongly support an open and candid discussion of the governance 
issues in Puerto Rico or anywhere else. Open and candid discussions are 
what this country is all about. It wouldn't surprise me, for example, 
if any one of the States could count up 2% or 3% of their population in 
support of independence from the Union--in fact I will wager that on 
every April 15 that number probably soars to 30%. The question here is 
not about Puerto Rico, the question is about terrorism and how we deal 
with it.
    Finally, I would specifically like to thank the various 
professionals with the FBI, local Police Departments, the members of 
the prosecutors' offices and members of the juries involved in these 
cases. They labored for years under difficult circumstances. I would 
like to thank them on behalf of the individuals who survived the 
massacre at Fraunces Tavern in 1975, and particularly, I would like to 
thank them on behalf of the four individuals who died and are therefore 
unable to be here to speak. They did not receive clemency. These 
innocent victims did not receive a reduced sentence.

                                  <all>

</pre></body></html>
